      General Services Administration
        Office of Inspector General




Report to the C ngress
      October 1, 1980-March 31, 1981




  Made Pursuant to Section 5 of Public Law 95-452
                   May 1, 1981
                     TABLE OF CONTENTS




      INTRODUCTION         o   •   0   0   •   0   •   $   •   •   •   •   •   •     i

      EXECUTIVE SUMMARY    e           e   •   e   $   8   •   •   •   •   •   •    ii

      SUMMARY OF REPORTING REQUIREMENTS •                      •   •   eo.         iii

      ORGANIZATION CHART                                                            iv
  I   ORGANIZATION AND STAFFING            8   e   •   "   •                         1

 II   STATUS OF ITEMS REPORTED AS SIGNIFICANT
      PROBLEMS, ABUSES, OR DEFICIENCIES IN
      PREVIOUS REPORTS • e o . • • • • • • •                           ...           3

III   DESCRIPTION OF SIGNIFICANT PROBLEMS, ABUSES,
      AND DEFICIENCIES AND RECOMMENDATIONS FOR
      CORRECTIVE ACTION • • • .. • • • .. • • .. • • •                              13

 IV   SPECIAL EFFORTS TO CONTROL FRAUD, WASTE,
      AND MISMANAGEMENT • • •          0   •   0   •   •   •   •   •   ...          17
  V   REVIEW OF LEGISLATION AND REGULATIONS •                          . .     .    21
 VI   STATISTICAL SUMMARY OF ACTIVITIES •                      •   •   eo.          23

VII   HIGHLIGHTS OF ACTIVITIES             •   •   •   •   •   •   •   •   •   9    35
      APPENDIX A - List of audit reports issued
                   during the period from
                   October 1, 1980, through
                   March 31, 1981

      APPENDIX B - List of inspection reports
                   issued during the period from
                   October 1, 1980, through
                   March 31, 1981
                                        INTRODUCTION


        This Semiannual Report is the fifth to -be submitted by the Office
        of Inspector General, General Services Administration (GSA)"pur-
        suant to the Inspector General Act of i978 (the Act) (Pub. L.
        95-452). It addresses the period frompctober 1, 1980, through
        March 31, 1981. As required by the Act, the report includes the
        following:
                  1.   A description of significant problems, abuses, and
                       deficiencies in agency programs;
                  2.   Recommendations for corrective action;
                  3.   An up-date on the status of significant items addressed
                       in earlier reports;
                  4.   A summary of matters referred for   prosecution~   and
                  5.   A list of all audit reports issued during this reporting
                       period.
        As stated in the report, Kurt W. Muellenberg, the first Inspector
        General of the General Services Administration, was removed on
        January 20, 1981. Michael C. Eberhardt, Deputy Inspector General,
        served as Acting Inspector General from January 21, 1981, through
        March 2, 1981, and on March 3, I succeeded Mr. Eberhardt in that
        position. It is appropriate, therefore, to note that the accom-
        plishments cited in this report are in large measure the product
        of efforts initiated by the Office of Inspector General under
        Mr. Muellenberg's leadership.
        During this reporting period we continued to review and refine
        our system of data collection, and, in the preparation of this
        report, we revised some of our methods of synthesizing data for
        reporting purposes. These revisions are noted in the report.
        In our view, the revisions have resulted in a more accurate
        reflection of the efforts and achievements of the Office of
        Inspector General.
        On behalf of the Office, I would like to acknowledge that since
        his appointment as Acting Administrator on January 19, 1981, Ray
        Kline has continued to give us the same excellent support which
        we had received from former Administrator Freeman.




                              General
                              Administration


GSA DC.OII03551
                                            i
                     EXECUTIVE SUMMARY



Noted below are some of the more significant acco~plishments
of the Office of Inspector General during this reporting
period:
  Made 120 referrals for prosecution to the Department of
  Justice.
  Made 17 referrals for civil recovery to the Department
  of Justice.
  Assisted in obtaining judgments totalling $996,000 against
  four individuals and two companies that had defrauded the
  Government and in negotiating seven settlement agreements
  totalling $42,599.
  participated in filing two fraud-related civil actions in
  which the Government seeks to recover in excess of $4
  million.
  Made 45 suspension referrals and 97 debarment referrals
  to appropriate GSA officials.
  Made 113 referrals to GSA management for administrative
  action.
   Issued 56 subpoenas.
   Issued 187 internal audit reports and 244 contract audit
   reports, the latter recommending savings in excess of
   ~~?   hAA
   v~~'v~~'vvv.
               nnn

  Conducted inspections of 1082 leases, construction pro-
  jects, contracts, and work orders.
  Issued 98 inspection reports recommending actions which
  could result in savings in excess of $2.9 million.
  Opened 366 and closed 326 investigative cases.




                              ii
                SUMMARY OF REPORTING REQUIREMENTS


                                                    Where Addressed
          Requirement                               in this Report
Ao   Inspector General Act of 1978
     1.   Section 4(a) (2) - Review of Legisla-     Section V
          tion and Regulations
     2.   Section 5(a) (1) - Significant            Section III
          problems, Abuses, and Deficiencies
     3.   Section 5(a) (2) - Recommendations        Section III
          for Corrective Action with Respect
          to Significant Problems, Abuses,
          and Deficiencies
     4.   section 5(a) (3) - Status of Items        Section II
          previously Reported as Significant
          problems
     5.   Section 5(a) (4) - Summary of Matters     Sections VI and
          Referred to Prosecutive Authorities       VII
          and Convictions Resulting Therefrom
     6.   Section 5(a) (5) - Summary of Reports     No such reports
          Made to the Administrator under the       made during this
          Provisions of Section 6(b) (2)            reporting period.
     7.   Section 5(a) (6) - List of Audit          Appendix A
          Reports
B.   Right to Financial privacy Act of 1978,        Section VLE
     Section l12l(b) - Summary of Information
     relating to the Obtaining of Records
     from Financial Institutions
C.   Requirement of Senate Committee on Appro-      Section VLF
     priations in Report No. 96-955 - Summary
     of Unresolved Audits             '




                               iii
                                            ORGANIZATION CHART
                                        OFFICE OF INSPECTOR GENERAL
                                      GENERAL SERVICES ADMINISTRATION



                                               Inspector General
                                            Deputy Inspector General



                                                                              Office of the
                                                                            Executive Director




            I                                                                         I
f-'.     Office of              Office of                   Office of               Office of
<:     Special Projects          Audits                    Inspections            Investigations




                          Field Audit Offices            Area Inspections        Field Investigations
                                                              Offices                  Offices

                    Boston         Kansas City           Washington            Boston       Kansas City
                    New York       Fort Worth            Atlanta               New York     Fort Worth
                    Philadelphia   Denver                Chicago               Washington   Denver
                    Washington     San Francisco         San Francisco         Atlanta      San Francisco
                    Atlanta        Auburn                                      Chicago      Auburn
                    Chicago
        I.   ORGANIZATION AND STAFFING
            On January 20, 1981, the President removed Kurt w.
        Muellenberg as Inspector General of the General Services
        Administration (GSA). All other Inspectors General
        appointed under the Inspector General Act of 1978 were
        also removed at that time. During the period from January
        21'through March 2, 1981, Michael C. Eberhardt, the Deputy
        Inspector General, served as Acting Inspector General. On
        March 2, he resigned from GSA. Brian M. Bruh, Assistant
        Inspector General for Investigations, succeeded Mr. Eber-
        hardt as Acting Inspector General on March 3, 1981. On
        May 6, 1981, the President announced his intent to nominate
        Joseph A. Sickon to be Inspector General of GSA.
            Louis G. Corsi resigned as Director, Office of Special
        Projects, effective April 27, 1981. Joel S. Gallay, a
        senior attorney with the Office of Special projects for the
        past two years, was named Acting Director, Office of Special
        projects.
            At the close of this reporting period, the Office had
        on-board 536 individuals, 13 more than had been on-board at
        the beginning of the reporting period. As indicated in
        Figure 1, on the basis of a funding reduction imposed by the
        Office of Management and Budget (OMB), this Office's per-
        sonnel ceiling for Fiscal Year (FY) 1981 was recently
        reduced from 622 to 538. Our current staffing level of 536
        is just below this reduced ceiling. However, because of the
        Full-Time Equivalency (FTE) restrictions imposed by OMB for
        FY 1982, we cannot as a practical matter fill any more
        positions, even those which may be vacated during the
        remainder of FY 1981.


                                  DISTRIBUTION OF STAFF
                               OFFICE OF INSPECTOR GENERAL
                        On-Board     On-Board     Initial Ceiling   Adjusted Ceiling
                        10LIL80      3L31 L 81        FY 1981           FY 1981
Inspector General          6             3               6                 6
Offices of:
  Audits                 280           279             341               279
  Inspections             71            77              82                76
  Investigations         129           140             150               140
  Special projects        22            23              27                23
  Executive Director      15            14              16                14

Total                    523           536             622              538

                                       Figure 1
                                             1
2
II.   STATU~OS   IT~MS  REPORTED AS SIGNIFICA~T PROBL~
      ~BUSESQ   OR DEFICIENCIES IN PREVIOUS REPORTS

      A.   INSPECTOR GENERAL REPORT OF NOVEMBER 1, 1979

           1.                                             ion


    The preceding report discussed several aspects of this
Office's comprehensive review of the Feder   Correctional
Institution construction project in Otisville, New York.
First, it noted that the review had resulted in a referral
to the United States Attorney for the Southern District of
New York     further investigation. The referral, which was
made on August 5, 1980, identified those areas in which
    e may have been violations of federal criminal law and
in which there appears to be the potential for significant
civil recoveries.  During this reporting period our Office
has continued to assist the United States Attorney in the
further investigation of this matter.

    Second, the preceding report stated that the Regional
Administrator, Region 2, had declined to follow two recommen-
dations made in the fi     audit report on the Otisville
project. These recommendations were that the Regional
Administrator (1) withdraw the contracting authority of
those GSA employees who had demonstrated incompetence in
the admi stration                 I and (2)     titute dis-
ciplinary actions            iate. This Off      re   red
the final     it r              Regional Administrator's
response to                    Public Bui ings Service
(PBS). Duri                       iod      Commissioner, PBS,
concur                           by the           Administra-
tor. As a              , we rewed        r   firmed the two
recommendations    ,on January 2, 1981,      erred the audit
report      the r         to it to the Administrator for
final     1S10n. On January 23, 1981, the     ing Adminis-
trator advised the Commissioner, PBS, and the Regional
Administrator that their position on this matter was not
acceptable. He directed that they review the matter further
pursuant to OAD P 5410.1 (September 17, 1980) and take
appropriate action. Shortly thereafter, this Office
requested that the Regional Administrator delay any adminis-
trative inquiry or disciplinary action until the investiga-
tion is completed. This request was made to ensure that the
criminal investigation is in no way compromised.

    Finally, the preceding report stated that the Office
of Inspections was in the process of completing its final
repo~t on the Otisville project.  The report was issued
during this reporting period. One of its critical findings


                               3
was that unnecessary contract overruns had resulted in a loss
to the Government of approximately $1.2 million and that'
poor management practices had resulted in the loss of an
additional $260,000. Because the inspection report cited
irregularities both in the award of some of the construc-
tion contracts and in the administration of the project as
a whole, it was forwarded to the Office of Investigations
for use in connection with the continuing investigation of
the Otisville project.
         2.   Non-Competitive Award of Guard Contracts
    At the close of the last reporting period, we reported
that all but six of the National Capital Region's (NCR's)
54 formally advertised security guard contracts had been
awarded.   (The advertising of new contracts in this area
had been undertaken in response to significant losses suf-
fered by the Government as the result of multiple exten-
sions of guard contracts without formal advertising.) The
NCR reports that during the past six months the final six
contracts were awarded and that all 54 of the contracts are
now in effect.
   B.    INSPECTOR GENERAL REPORT OF MAY 1, 1980
         1.   unoccupied Leased Space
    The preceding report stated that the Regional Adminis-
trator, Region 2, and the Commissioner, PBS, had rejected
our recommendation that, because Lefrak Plaza had remained
vacant for 21 months of its 34-month lease, disciplinary
action against the responsible GSA employees should be
considered. At the close of the last reporting period, we
reaffirmed our recommendation and referred the matter to the
Administrator. During this reporting period the Administra-
tor informed the Regional Administrator that his position
was not acceptable and directed him to take appropriate
corrective action. In response to this directive, the
Regional Administrator issued letters of admonishment to
three senior PBS managers in Region 2. Letters of admonish-
ment were also issued to former Region 2 personnel now
employed in Region 9 and in GSA's Central Office. In addi-
tion to these disciplinary actions, the Regional Administra-
tor (1) initiated negotiations with the Lefrak Plaza lessor
to recover funds which may be owed the Government for ser-
vices not provided, and (2) established a system to improve
coordination, tracking, and monitoring of all PBS projects
which, like the Lefrak Plaza lease, cut across service or
divisional lines.



                             4
    It was noted in the preceding report that the Subcommittee
on Public Buildings and Grounds of the House of Representa-
tives Committee on public Works and Transportation had
requested that this Office perform an audit assessing GSA's
problems relating to unoccupied space and that this Office
had initiated an interagency review coordinated by our
Office of Audits. The interagency review involved the
Departments of Agriculture, Health and Human Services,
Treasury, and Justice and was performed by auditors from
each of these departments as well a~ from GSA. The review
culminated in an audit report issued on March 27, 1981.
The report concluded that GSA does not and cannot effectively
manage Government-owned and Government-leased space because
the agency does not have a system through which it can
accurately determine how much space is under its control,
how much space has been assigned, and how much space remains
available for assignment. More specifically, it was found
that (1) the reference in GSA's FY 1981 budget submission to
14.6 million square feet of vacant space was inaccurate and
uns-upported, (2) by maintaining vacant space in ten specific
facilities for approximately two years, GSA had incurred
building operating costs of approximately $2.3 million,
(3) 48 percent of the total 7.8 million square feet reported
on May 1, 1980, as being available for occupancy wa~ not in
fact available, (4) GSA has not been able to find tenants
for approximately 2.3 million square feet of space which has
remained vacant in 48 buildings for approximately four years,
and (5) as a result of improper loading of occupancy data
into the PBS/Information System (PBS/IS), GSA lost in excess
of $1.6 million in Standard Level User Charge (SLUC) rentals
from tenant federal agencies over a two-year period. The re-
port also concluded that GSA's ability to satisfy agencies'-
outstanding requests for space is restricted by the fact
that the requests allow little flexibility geographically
and that they seek relatively short-term space commitments.
    To remedy this situation, the report recommended to the
Commiss      , PBS, that (1) changes in the vacant space
inventory be processed into the PBS/IS in a timely manner,
(2)     low-up procedures be implemented to ensure that
such changes are accurately reported, and (3) specific
ac       be taken to   event the agency from maintaining
non-income producing property."· Because these recommenda-
tions were       so         , the Commiss      has not yet
responded to them.




                             5
         2.   Construction Program Problems

    The preceding report stated that this Office had
recommended that the agency recover approximately $52,000
in fire watch labor costs from the lessor of the Federal
Building in Helena, Montana. The report also stated that
the lessor was in receivership ahd that a bill for $52,000
had been presented to the receiver. This statement was
incorrect. The building rather than the lessor had been
in receivership, and the bill referred- to in that report
had been presented to a company which had purchased the
building at the close of the receivership. The Regional
Administrator, Region 8, has advised us that during this
reporting period collection efforts were discontinued on
the advice of regional counsel.
    Another PBS construction program problem discussed in
preceding reports relates to the Architect/Engineer (A/E)
Term Contract Program in Region 4. The preceding report
stated that the Assistant Regional Administrator, PBS, had
declined our suggestion that A/E term contractors perform
only these services directly related to the design project.
(Soil testing and roof inspecting were two examples we had
given of services which do not ordinarily bear a direct
relationship to design projects.) During this reporting
period the Commissioner, PBS, upheld the Assistant Regional
Administrator's decision on the ground that performance of
such services is vital to the efficient operation of PBS.
However, he did state that in the future such services would
be clearly defined in A/E solicitations and the solicita-
tions would be approved by the appropriate Contract
Assurance Office. This plan appears to be an acceptable
alternative to the plan we recommended. We will formally
evaluate its efficiency at a later time.
         3.   Furniture Procurement and Management.
    The preceding report addressed an interagency audit on
furniture procurement and management which was coordinated
by this Office. The report listed the recommendations made
in that audit. During this reporting period we conducted a
preliminary review of the action plan devised by the Federal
Supply Service (FSS) in response to the audit. While we
found it generally responsive, we concluded that it was non-
responsive in two significant respects. First, under the
action plan the "Furniture Requirements and Expense Plans"
of GSA's user agencies could allow the procurement of new
furniture for new buildings. Such procurements would be
inconsistent with the Federal Property Management Regula-
tions (FPMR). Second, there are indications that in imple-
menting its plan GSA will approve future procurements of

                             6
systems furniture by user agenciese          interagency audit
     a      t by the General Accounting      fice (GAO) both
     tioned     cost effectiveness      systems furniture
acquisitionso    (In comments on a proposed change in the
FPMR, we reiter       our concern that the systems furniture
acquisit     program not be reopened. See Section V.)      A
follow-up audit of the      ion plan wi          place in the
near future.
           during this reporting period 16 of the original 18
departments and agencies which conducted the interagency
audit participated in a review of agency compliance with the
         ze on furniture procurement referred to in the pre-
ceding        to Whi    the review disclosed no systematic
attempts to circumvent the freeze, isolated incidents of
non-compliance were identifi       These were reported to the
    nistrator on January 2, 1981. One result was the can-
       ion     the Department of Agriculture of more than
$600,000 in orders for systems furniture.




    During   is          period the Office issued reports
on the distribut           al surplus     sonal property
in two states. Ten such      ts have now been issued. The
r           ts di       problems simi     to those already
i          in earlier r   ts on other states.   In general,
the states have            ive to our recommendations for
improvements in               property distribution systems •.

    We have initi      a comprehensive management review of
the entire FPRS donation program. One purpose of the re-
view is to analyze those deficiencies already reported and,
as appropriate, to recommend program changes which will help
to prevent the recurrence of problems at the state level.

         5.    Energl
    We have been informed that the Commissioner, PBS, will
soon respond to our recommendations, referred to in the two
preceding reports, for effecting a 20 to 30 percent energy
savings (approximately $2.5 million) in six buildings. As
noted in the last report, several of our recommendations
have already been implemented by regional officials.

    Our examination of energy problems in large Government-
owned buildings has continued. During this reporting period
we began a review of three Government-owned steam heating
plants with a total annual operating cost of $30 million,
including the price of fuel. The review will involve
inspection and analysis not only of the plants but also


                               7
of the 120 buildings which they supply with steam and of the
tunnel system which ,connects the plants to the buildings.
It will require a significant commitment of time and manpower.
     In addition to inspection programs aimed at more effi-
cient use of energy, the Office is conducting audits re-
lating to procedures which would result in greater energy
conservation. During this reporting period such audits were
performed in two regions. In each instance it was recommended
that (1) energy usage data be accurately compiled and ana-
lyzed in order that wasteful energy practices can be iden-
tified, and (2) potential energy savings be thoroughly
analyzed and documented prior to the initiation of any
energy retrofit project. The two Regional Administrators
to whom these recommendations were made have for the most
part concurred in them. The recommendations are now being
considered by the Commissioner, PBS.
         6.   Review of Year-End Obligations
    The preceding report noted that Region 5 had refused to
adjust its rental account to reflect unrecorded obligations
for lease escalation costs. During this reporting period,
however, Region 5 revised its position and adjusted its
rental account as we had recommended.
   C.    INSPECTOR GENERAL REPORT OF NOVEMBER 1, 1980
        1.    Consultant Contracts
    Section 307(b) of the Supplemental Appropriation Act of
Fiscal Year 1980 (Pub L. 96-304) requires that each Inspector
General submit to Congress with his or her agency's budget
justification an evaluation of the agency's progress in
(1) instituting effective management controls over the pro-
curement of consultant service contracts, and (2) improving
the accuracy and completeness of data provided to the
Federal Procurement Data System (FPDS) regarding contractual
arrangements for consultant contracts. This Office recently
issued to Congress and the Administrator a report which
responds to this mandate.
    The report states that we are now in the process of
reviewing the manner in which GSA's procedures for procuring
consultant services are being implemented.   (AS discussed
in the preceding report, these procedures are set out in
ADM 2800.l2A, an order which the Administrator issued during
the last reporting period in response to an OMS directive.)




                             8
The review is being conducted in accordance with the provi-
sions of the interagency audit guide which, as noted in the
preceding report, our Office assisted in preparing. Because
the review is still in progress, the report does not address
GSA compliance with the procedures mandated by ADM 2800.12A.
Similarly, the report does not address the GSA inventory of
service contracts because its results have not yet been for-
warded to us.
    The focus of the report is the information which GSA has
provided to the FPDS. We found that of 122 procurement
actions which were reported as being consultant contracts,
only five actually are consultant contracts under the defini-
tion given that term in OMB Circular A-120 (April 14, 1980)
and reiterated in ADM 2800.l2A. The value of the 122 pro-
curement actions was $5,883,000; the value of the five con-
sultant contracts, $857,000. The following types of service
contracts are examples of those contract types which were
erroneously classified as consultant contracts:

            construction management reviews
            real property appraisal services
            specification development services
            other automated data processing (ADP) services
            architect-engineering services

    The report suggests that the significant rate of reporting
errors may be a result of ambiguity in the definition of con-
sultant services.  (Our Office identified this ambiguity as
a potential problem in our comments on the proposed order
which became ADM 2800.l2A.) To ensure more accurate
reporting of data into the FPDS in the future, this report
recommends that contracting officers be given more definite
direction as to what types of contracts fall within the
definition and what types do not. It states that one
possible means of providing this direction would be to
classify each FPDS product and service code as being inside
or outside the    inition of consultant service.




                             9
    During this reporting period our on-going review of
consultant service contracts led to the referral of a
criminal case to the united States Attorney for the District
of Columbia. The case involves a consultant organization
which had contracts with GSA and a number of other federal
departments and agencies. Through an interdisciplinary
review, we found indications that agencies had paid the
company for work not performed, that the company had given
contracting officers items of value in order to influence
official decisions, and that corporate officials had
misappropriated corporate funds. We are working with the
united States Attorney's Office in the further investigation
of this matter.
         2.   Donated Real Property
    As indicated in the preceding report, the Administrator
and the Commissioner, FPRS, concurred in our recommendation
that GSA seek clear statutory authority to monitor and
enforce compliance by real property donees with the terms
of conveyance agreements.   (The recommendation followed a
finding that approximately 78 percent of donated real pro-
perty is misused, underutilized, or leased for commercial
purposes.) The agency has drafted legislation which would
amend the Federal Property and Administrative Services Act
of 1949 to authorize GSA to conduct compliance inspections
and to enforce the terms of agreements for the disposal of
real property. OMS is now circulating the draft legislation
for comment.
         3.   Embezzlement from the National Audiovisual
              Center (NAC) of the National Archives and
              Records Service (NARS)
    The preceding report stated that while GSA officials had
committed to the development of an interim NAC accounts
receivable system with adequate internal controls, no
effective financial controls were in place at the close of
the last reporting period. During this reporting period the
Office of Data Systems installed an interim system. However,
NARS has not yet determined whether the system meets its
needs.
         4.   Document Accountability at   the.~ARS

    During this reporting period the Archivist of the United
States responded to our recommendations concerning document
accountability at NARS. As summarized in the preceding
report, these recommendations were that (1) all significant
historical documents be inventoried then catalogued as part


                             10
of a permanent retrieval     tem, and (2) a strict charge-out
accountability     tem be established for highly sensitive
and invaluable h stori~al documents which may be susceptible
to theft. In his response, the Archivist stated that he
considered control through security measures to be preferable
to inventory control measures. He noted that the archival
community       not consider item-by-item document -review
and control to be advisable. As to the HARS situation
specifically, he estimated that the inventory we had pro-
       would involve approximately 3 billion items and would
require an impossibly large investment of staff time. The
Archivist stated that those items of significant intrinsic
or artifactual value are maintained in extra security vaults
and that they had been inventoried in February, 1980. He
listed several security measures which have been taken
recently to reduce the risks of theft and wanton destruction
    records.
    We have reviewed the ArchivistWs response and are satis-
fied that HARS is fully cognizant of its security and
accountability problems and is working within the limits of
its resources to protect those items of significant intrinsic
or artifactual value.
         5.   price Reduction and Defective pricing Clauses
    During this reporting period the Office continued to
focus considerable attention on the price reduction and
defective pricing clauses in multiple award contracts.
Early in the reporting period the Inspector General sent
to the Administrator a memorandum correcting a misinterpre-
tation of the price reduction clause. The Commissioner,
FSS, and the Assistant Administrator, Office of Acquisition
policy (OAP), concurred in our interpretation. They
informed the Administrator that they were reevaluating GSA's
pricing pol ies for FSS multiple award schedules and empha-
sized that any proposed changes in the clauses would be made
in full coordination with this Office. This arrangement
was implicitly confirmed by the Administrator in an order
directing that OAP, this Office, and     Office of General
Counsel (OGC) "get together" in resolving problems related
to the clauses.
    In discussions with this Office, FSS and OAP indicated
that, due to our ex    ive experience in the defective
pricing and price reduction area, it would be helpful
if we identified what we have found to be the most serious
problems as to the manner in which the clauses are being
implemented. We identified these problems in a memorandum
to the Director, Office of Contracts, FSS.


                             11
    On December 31, 1980, we received from the Commissioner,
FSS, a draft revised version of the defective pricing and
price reduction ~lauses. In our view, the draft was not
responsive to the problems identified in our memorandum.
Our preliminary review of the draft revealed several funda-
mental problems of such significance that we notified FSS
of them immediately and suggested further discussion of
them. We have received no further communication from FSS
regarding the draft revisions of the clauses. They are now
being reviewed by OAP.
    We have continued to audit FSS supply schedule contracts
for possible violations of the clauses. During this report-
ing period 59 audit reports were issued addressing possible
violations of the clauses. Forty-three were preaward audits;
16 were post-award. See Figure 10, Section VI.F. One of
the post-award audits recommended that GSA seek a refund of
$745,319 from a contractor who had supplied the Government
with photographic film, paper, and chemicals. The contrac-
tor did not inform GSA of changes in those pricing policies
upon which its GSA prices had been based. Considered
together, the 16 post-award audits issued during this period
on possible price reduction clause violations recommended a
total refund in excess of $7.5 million.
    During this reporting period we opened new investiga-
tions into the possible criminal implications of violations
of both the defective pricing and price reduction clauses.




                             12
III.   DESCRIPTION OF SIGNIFICANT PROBLEMS, ABUSES, AND
       DEFICIE~CIES AND RECOMMENDATIONS FOR CORRECTIVE ACTION

       A.   PROBLEMS RELATING TO GSA'S ADP SYSTEMS
      Two recent reviews indicate that there are serious problems
concerning several of GSA's ADP systems. perhaps the most
serious of these problems is the fact that GSA has not developed
adequate contingency/recovery plans for its major systems. The
FSS-19 system is an example. Run on one Burroughs B-7700
computer in NCR since November 1980, it centralizes all FSS
processing. Its functions include procurement, inventory
management, logistics data management, order processing, supply
distribution, quality control, retail services, marketing, and
management information. As a result, GSA's critical supply
operations are almost totally dependent upon the smooth operation
of the FSS-19 system. In the event of a major disaster or a com-
puter breakdown, almost every FSS function would come immediately
to a standstill.
      We have recommended that several actions be taken to remedy
this precarious situation. One is that the agency prepare a
detailed risk analysis and develop a contingency/recovery plan
for the FSS-19 system. Another is that a more detailed recovery
plan than now exists be prepared for the MAPS system, GSA's
payroll system. Finally, we recommended that in the future the
agency consider contingency/recovery plans for major systems
before they are operational, preferably as part of the procurement
process. Because the recommendations were made only recently, we
have not yet received a response to them.
      Another problem is the lack of eff.ecti ve controls on GSA's
ADP systems. We have found that individuals can enter unauthor-
ized transactions into certain FSS and Finance systems with
little chance of detection. More specifically, we found that
false sales adjustment documents can be used to credit improperly
FSS customer accounts and that unauthorized refunds can be issued
to FSS customers. Exploitation of these and other control
weaknesses could result in losses to the General Supply Fund.
      We made several recommendations to the Commissioner, FSS,
and the Assistant Administrator for Plans, programs, and
Financial Management. Chi    amRng these was a recommendation
     GSA develop an input security system     the Finance and FSS
           dev       GSA            concur    in our findings and
r                                 plans       are respons     to
our concerns.
      B.   FAST TRACK LEASING PROGRAM
      During this reporting period we completed a management
review of PBS·s Fast Track Leasing Program (the Program). The
intent of the Program, which was initiated in early 1977, was to
streamline the procedures for leasing units of space which are
5000 square feet or less. GSA currently has 3140 leases for such
space. They represent approximately 6.8 million square feet and
comprise 59 percent of the total number of leases in GSA's
inventory.
      Our review focused on 44 small leases, located throughout
GSA's regions, which had been obtained through the program. We
found that the Program had improved neither efficiency nor eco-
nomy in the award of these leases. Under the Program, the award
of small leases is to be accomplished in 60 to 90 days; however,
the average amount of time which had been required to obtain the
leases in our review was nine months. We concluded that this
slow-down is due in part to unnecessary and duplicative internal
reviews.
      In our report we recommended that PBS reevaluate the
program's regulatory requirements and revise them to conform
better to the Program's intent. The report also noted that
the Program's efficiency depends in large measure on the
adequate training of the contracting officers who implement
it. We expect a response to these recommendations in the
near future.
     C.    DISPOSAL OF SURPLUS REAL PROPERTY
      We recently reviewed the GSA management controls which are
applicable to over approximately 3,000 units of surplus real pro-
perty for which FPRS, NCR, and FPRS, Central Office, have utili-
zation inspection responsibility. These properties are valued at
a total of $13.1 billion. We found that FPRS was not properly
executing its responsibilities. Among our findings were the
following: (1) unneeded and underutilized real property is not
being identified and made available to other Federal agencies in
a timely manner, (2) FPRS is sometimes selling surplus properties
through negotiated sales without considering the comparative
advantages of competitive bid sales, and (3) staff appraisals of
valuable easement rights are often arbitrary and unsupportable.
We recommended that FPRS increase the frequency of survey
inspections, amend the applicable regulations to allow
unannounced inspections, issue policy guidance on the relative
merits of competitive and negotiated sales, and improve staff
appraisals. These recommendatons are now being considered.




                              14
      D.   SURETY BOND PROBLEMS

      In many instance~ GSA contracts require a contractor to
post a bid, performance, or payment bond. A bid bond, which may
be required at the discretion of the contracting officer, is
designed to protect the Government by ensuring a source of
funding for damages should the bidder be unable to accept the
contract at his bid price. Performance and payment bonds are in
certain instances required by law; they can always be required by
the contracting officer in his discretion. As its name indicates,
a performance bond guarantees performance. A payment bond
guarantees that the contractor will pay his subcontractors.

      Two types of sureties may provide these bonds. The first is
a corporate surety, which must be approved by the Department of
the Treasury. The second is an individual surety. This surety
pledges his own property to support the bond requirements. He
must provide GSA with an affidavit which enumerates and values his
wholly-owned real and personal property and states that these
assets are sufficient to support the bond. U-der GSA regulations,
the affidavit must be certified by a responsible individual,
usually a bank officer.
      Our investigations have disclosed fraudulent activities by
both corporate and individual sureties. With regard to corporate
sureties, we found that certain individuals were creating ficti-
tious companies whose names closely resembled those in the Depart-
ment of Trpasury's approved list and were using the fictitious
companies to issue worthless payment and performance bonds on
contracts in NCR. Two individuals who were engaged in this
scheme were convicted in the Eastern District of Pennsylvania
with the assistance of this Office. To ensure that frauds of
this type are not perpetrated again, we have notified responsible
program officials to check all corporate surety names carefully
against those on the Department of the Treasury's approved list.

      Despite these problems with corporate sureties, our
experience has been that the greater potential for fraud exists
in the area of individual sureties. Our investigations have
disclosed     following types of fraud perpetrated by individual
sureties: (1) inf    ing the value of assets listed in the
affidavit, (2) listing assets not owned or not wholly-owned,
(3) simultaneously pledging the same assets to support bonds
on several contracts with dlf    ent Government agencies, and
(4)     gi  the certificate of suffic       portion of the    fidavit.
(One such          case     been              prosecution.)
In   80              as these resulted in    Ws being presented
with $2 mi      worth of bonds which were supported by over-
                     ued          In one    tance two contractors
using the same individual         defaul    on 13 contracts bonded
                                  assets. GSA suffer    significant



                              15
      These abuses exist because current GSA procedures regarding
analysis and acceptance of individual surety bonds are inadequate.
GSA takes no action to confirm the existence or value of assets
pledged by individual sureties. Furthermore, there is no system
for recording which individual sureties have bonds currently
outstanding on bids and contracts with GSA.
      This Office has taken the position that if GSA is to be
successful in collecting debts against contractors, the agency
must be assured that bid, performance, and payment bonds are
adequately supported. We have recommended that GSA adopt proce-
dures similar to those of the Department of the Treasury for
evaluating and processing individual sureties. We believe that
if such procedures are not implemented, the FPMR and the General
Services Administration Procurement Regulations should be amended
to prohibit GSA acceptance of individual surety bonds.
      The response of OAP to our recommendation is that con-
tracting officers are improperly insisting on surety bonds in
connection with GSA guard and janitorial contracts. In our view
this response does not adequately address our recommendations and
the concerns which prompted them. In addition, it is erroneous
even within its own limited scope. As we have emphasized to OAP,
the number of defaults on guard and janitorial contracts makes
surety bond requirements in this area a legitimate exercise of
contracting officer authority under 41 C.F.R. §1-10.104-2. This
matter has not yet been resolved.
      E.   REPAIR AND ALTERATION CONTRACTS
      During this reporting period four reviews relating to the
repair and alteration of Government-owned and Government-leased
space were completed. These reviews disclosed that administra-
tion of repair and alteration contracts is often negligent and
that internal GSA controls need to be improved. For example, a
review of two Government-owned buildings in Region 2 revealed
that improper contract administration practices had resulted in
$344,000 in unnecessary costs. Other reviews disclosed that in
some instances (1) the monitoring of alterations lacked effective
controls, (2) GSA actions relating to repairs and alterations are
not properly documented, and (3) independent Government estimates
for such work are not properly prepared or used.
      This Office made several recommendations aimed at cor-
recting the problems enumerated above. Most of the recommen-
dations involved specific internal controls which should be
implemented by the agency_ These recommendations are now being
considered by the Commissioner, PBS. With regard to the Region 2
review noted above, it was recommended that disciplinary actions
against GSA contracting officials be considered and that con-
tracting authority be withdrawn from those employees who have
demonstrated incompetence. Region 2 has suspended action on this
recommendation pending completion of a related investigation by
this Office.

                              16
IV.   SPECIAL   EFFO~   TO CONTROL FRAUD, WASTE,LAND MISMANAGEMENT

      A@   EFFORTS RELATING TO DEBARMENT AND SUSPENSION
     Since July        one of   is Office's highest priorities has
been to encour         to pursue aggressively the debarment or
suspension of          contractors found to be engaging in or
      ted upon           evi      to be engagi    in fraud or other
criminal acti ties, improper        acting       ices regarding GSA
     acts, or act vi ties wh           se i   icate irrespon-
s! lity as a Government con            Our       ts in this area
have taken       different yet          directions. First, we
recommended      GSA adopt                       to unify the
        of              and                       most part, our
                                                through revisions
                                        ions. One of the most
                                            final responsibility
                                            in one organization.
                                             is vested in OAP.
                                        more consistent applica-

                                                    foster consistency
                                                             A


                                                                 are




                               17
     Several of our recent referrals recommended that the agency
suspend contractors under circumstances in which suspension had
never before been attempted. For example, at our recommendation,
the agency has begun to suspend contractors prior to indictment,
where appropriate.   (A recent case which upheld GSA procedures
allowing suspension under these circumstances is addressed in
Subpart E of this Section.) In addition, we have successfully
recommended suspension in cases in whi-ch indictment was not or
was no longer contemplated. For example, we recommended that
GSA initiate suspension proceedings in-a case in which GSA was
attempting to recover through administrative set-off $IOO,OO~
which it had paid to a con~~r~rk not performed. Ou~r----­
recommendation was accepted, and the contractor was suspended
from doing business with the Government.    (The suspension was
later lifted in accordance with the terms of a settlement agree-
ment between GSA and the contractor.) In a related case we
recommended the suspension of a contractor against which criminal
prosecution had been declined but a civil case had been filed
under the False Claims Act. This recommendation was also
accepted, and the contractor suspended.
     B.   COORDINATION WITH THE SMALL BUSINESS ADMINISTRATION
          (SBA) REGARDING RESPONSIBILITY OF SMALL BUSINESS
          CONTRACTORS
     As noted in Section IV.B of the preceding report, this
Office has encouraged GSA contracting officers to make careful
determinations as to the responsibility of those small business
contractors that submit bids on GSA contracts.   (A determination
of irresponsibility may be based upon, inter alia, a finding that
the contractor lacks capacity, credit, or integrIty.) In review-
ing this area we have found that in a number of instances the
SBA has reversed GSA's determination of irresponsibility, has
issued the contractor a Certificate of Competency (COC), and has
therefore made inevitable the award of a contract to the
contractor, assuming its bid is low and otherwise responsive.
(In some of these cases the contractor has later defaulted on its
GSA contract for precisely the reason the contracting officer had
initially found it irresponsible.) In order to foster more con-
sistent treatment of responsibility issues by GSA and the SBA, we
recommended to the Commissioner, PBS, that PBS contracting offi-
cers fully and completely document their findings     irrespon-
sibility and forward this documentation to the SBA. The
Commissioner has adopted and implemented this recommendation.
     Our review of this area also revealed that the SBA has often
failed to conduct periodic examinations of COC contractors, as
required by SBA COC procedures. We recommended that in those
cases in which a GSA determination of irresponsibility is reversed
and, as a result, a contract is awarded, the     contracting
officer insist that the periodic examinations be performed and
that GSA be apprised of the findings of such examinations. The
Commissioner accepted and implemented this recommendation.

                              18
     C.   CORRECTION AND PREVENTION OF HEALTH AND SAFETY
          HAZARDS
     An earlier Semiannual Report (May 1, 1980) addressed
the issue of the improper storage of polychlorinated
biphenyl (PCB) at a federal facility in Bladensburg, Mary-
land. Since that time reviews of health and safecy con-
ditions have revealed the existence of hazardous or
potentially hazardous conditions in Regions 2 and 9. In
Region 2 the problems include improper storage of PCB, fire
safety hazards, and abandonment of potentially hazardous dyes.
In Region 9 the health and safety hazards disclosed during the
review involved asbestos exposure. Each review included specific
recommendations for eliminating the hazardous conditions which
existed and preventing other such conditions from developing.
The Regional Administrators accepted our findings and have
initiated appropriate corrective and preventive actions.

     D.   FRAUD AWARENESS
     In December 1980, we published a booklet entitled
"Developing Fraud Awareness in Management". Based in large part
on our investigations of contractors' schemes to defraud the
Government, the booklet (1) identifies the types of fraud which
are possible under current GSA procurement practices, (2) makes
suggestions as to how fraud may be prevented, and (3) describes
methods for detecting different types of fraud. The booklet
emphasizes the responsibility of each GSA employee to report to
the Office of Inspector General all indications of the existence
of fraud. Because we believe that heightened management awareness
of known indicators of fraud is 'essential to the integr i ty of the
agency's programs and operations, the booklet was widely distri-
buted among GSA management officials and buildings managers
and their operating personnel.

     E.   SIGNIFICANT LITIGATION
     Two decisons which are directly related to the work of this
Office were handed down during this reporting period. The first,
Transco Security v Freeman, No. 80-3155 (6th Cir. January 23,
1981), was issued by the united States Court of Appeals for the
Sixth Circuit    It involved a challenge to GSA's suspension regu-
lations by a      contractor which the agency had suspended at
our recommendat        The contractor argued that the regulations
violate due         s          ng GSA to suspend a contractor from
      business with the Government for       to 18 months without
affording the contractor a       ing. Although the court
questioned the                      ticular notice of suspension
i      in this case, it r          the contractor's due process
argument              the        ion regulat      as written. The
          is si   f       in that it confi      the validity    the
         es through which      can suspend       actors suspected,



                              19
upon adequate evidence, of criminal conduct or irresponsibility
as a Government contractor.   (The emphasis which this Office has
placed on such suspensions is discussed in Subpart A of this
Section.)
     The other significant decision was that handed down by the
united States District Court for the District of Columbia in
Lasker-Goldman v GSA, CA No. 80-1453 (D.D.C •. February 27,1981),
a case brought under the Freedom of Information Act (FOIA). The
plaintiff in this case sought to obtain a draft audit report
prepared by this Office in connection with our review of the
otisville Federal Correctional Institution construction project.
See Section II.A.l. GSA asserted that the draft was exempt from
FOIA's general production requirement because, as an "intra-
agency memorandum", it fell within FOIADs exemption five. The
plaintiff argued that this Office had waived the privilege of
asserting this exemption by (1) circulating the draft to various
GSA offices for comment and review, and (2) so poorly controlling
the dissemination of the draft that the news media had gained
access to it and published allegations contained in it. The
court rejected the plaintiff's argument. Relying upon the affi-
davit of the Deputy Inspector General, it found that circulation
within the agency is a    id part of the predecisional process
and that the "leak" to the press had been unauthori    • The
finding that a draft GSA audit report is not subject to produc-
tion under the FOIA was an important victory in protecting the
reliability and integrity of the audit process.




                             20
v.   REVIEW OF LEGISLATION AND REGULATIONS

       Supported proposed amendments to the Inspector General
       Act of 1978 (S. 3025). These amendments would create
       statutory Inspectors General in five additional agencies.

       Objected to proposed Federal Procurement Management
       Regulations (FPMR) Temporary Regulation E, which would
       allow the purchase of systems furniture.  In our objec-
       tion we cited audit reports issued by this Office and GAO
       which questioned the cost effectiveness of systems
       furniture.
       Generally supported S.240, the proposed Computer Systems
       protection Act of 1979, as a significant initial step in
       defining criminality in the abuse of computer systems.
       We identified some weaknesses in the proposal which
       should be corrected prior to its passage.
       Supported amendments to the Defense Production Act of
       1950 (H.R. 129). The amendments would set limitations on
       the amount of compensation which former Government
       employees may accept from Government contractors and
       would impose criminal sanctions for exceeding the
       limitations. We also recommended that the legislation
       strengthen existing prohibitions on current Government
       employees' receiving compensation of any amount from
       Government contractors.

       Supported amendments to the Accounting and Auditing Act
       of 1950 (H.R. 350 and H.R. 1526) which would require the
       head of      Government agency to evaluate on a yearly
       basis the   fectiveness of    s or  r agency's internal
       accounting and administrative        s, to report that
       evaluation to the president, and to   epare a plan to
                                or            in those controls.
                                               in H.R.   26
                                                 which      an
                                             with i       ion
                                            by its Inspector
                                                     t   by




                         , n our
                        dut es assi
                         78.
Suggested that the proposed Government Contractors'
Product Liability Act of 1981 (H.~. 1504) be further
reviewed and clarified.
Supported both the proposed DeQt Collection Act of   81
(S. 591) and OMB's proposed amendments to various debt
collection statutes and regulations. We believe that
these proposals, if finalized, would strengthen the
ciency and effectiveness of the Government's debt collec-
tion process.




                     22
VI.    STATISTICAL SUMMARY OF ACTIVITIES

      A.   CRIMINAL REFERRALS
    During this reporting period our Office made 120 referrals
for prosecutione   (Some are summarized in Sections VII eC and
VIIeD.) In compiling the data for this statistic, we counted
as separ    referrals each individual and each business con-
cern referred for prosecution. In preceding Semiannual
Reports, the "criminal referral" statistics reflected only
the total number of investigations referred during the par-
ticular reporting    riod.  (From April 1, '1979, through
September 30, 1980, 66 criminal investigations were
referred.) The method of computing criminal referrals used
in this report is more consistent with the record-keeping
practices of the law enforcement community as a whole, and
it more accurately reflects the scope of our criminal
r    ral effort.  It will be the method used in all future
Semiannual Reports of this Office.

    Of the   o referrals made during this reporting period,
prosecution has been declined in 18. Prosecution was also
declined on five referrals made during earlier reporting
periods.
    Figure 2 shows those actions taken during this reporting period
on criminal referr s made during this and earlier reporting
periods. Some of the more significant of these actions are
addressed in section VII.C. More detailed information regarding
the act     indicated in Figure 2 is summarized in Figures 3 and
4.  (Note      in Figures 2, 3/1 and 4 a case may be reflected in
more than one statistic, ~ as an indictment and a conviction.)




                                23
                IDENTIFICATION OF INDIVIDUALS AND FIRMS
                    IN THE CRIMINAL JUSTICE SYSTEM
                OCTOBER 1, 1980, THROUGH MARCH 3J, 1981

                INDICTMENTS/ CONVICTIONS DISMISSALS/           SENTENCES
                INFORMATIONS PLEAS TRIALS ACQUITTALS SENTENCES PENDING

GSA Employees       11         10      o         1        10        1

Firms                8          4      1         1*        6        o
Officers,
Employees
Principals, and
Agents of Firms     15          7      3         8*       17        o
Private
Individuals          5          3      o         o         3        o
Other Government
Agency Employees     2          o      o         o                  o
Total               41         24      4        10        36        1

*The Department of Justice is now considering appealing the order which
dismissed an indictment against Computer Sciences Corporation and six
of its employees.


                                    Figure 2




                                           24
              IDENTIFICATION OF INDICTED INDIVIDUALS AND FIRMS
                                 BY SERVICE
                  OCTOBER 1, 1980, THROUGH MARCH 31, 1981

                     A.DTS    FPRS        FSS        NARS       PBS     TPUS          TOTAL

GSA Employees           0       3          1           0            6     1             11

Firms                   1       2          4           0            1     0              8

Officers,
Employees,
Principals, and
Agents of Firms         6       4          3           0            2     0             15

Private
Individuals             0       4          0           1            0     0              5

Other Government
Agency Employees        0       0          0           0            0     2              2

Total                   7      13          8           1            9     3             41


                                          Figure 3



                    SUMMARY BY SERVICE OF CRIMINAL ACTIONS TAKEN
                       OCTOBER 1, 1980, THROUGH MARCH 31, 1981

        INDICTMENTS/                                                          SENTENCES
        INFORMATIONS            CONVICTIONS                 SENTENCES          PENDING

ADTS            7                     0                         0                 0

FPRS          13                     10                        10                 0

FSS             8                     7                         9                 0

NARS            1                     1                         1                 0

PBS             9                     9                        15                 1

TPUS                                  1

              41                                               36                 1


                                          Figure 4


                                                25
    During the two years (April 1, 1979, through March 30 g  81)
in which this Office has been in operation as the   fice
Inspector General, 129 indictments and 112 convictions have
resul    from our investi   ive,    it,     i     tion      ts.

       B.

     As illustrated in Figure 5, during this reporting           we
made     r     r     for civil action to the Civil Division     the
Department       Justice or, if appropriate, to a Uni    states
Attorney.    (Consistent    th the criminal    erral statistic, this
figure resents the number          individuals     business con-
cerns r     red for     viI action, not the number    investigat
referr , as was the case in earlier reports. See Section VI.A.)




  Re


                                              4:    2           33


                                   Fi   e 5

               ref err
               ted by
             i     amount
             the 33
                   i                               amounts   recover~




         e 6 summarizes                          during     s re-
            10d which                               ts. It i
a          summary jy~~.",~                         inst a GSA
contractor and two                                  ault judgment
    $972,000 against                                    r GSA
            The latter j         so ves     in      title to 202
         r     property      by one     the    fendants in Prince
William County, Virginia. He purchased this property, the court
found, with the fruits of his illegal conduct.

                              26
                                        RECOVERIES ORDERED
                              OCTOBER 1, 1980 THROUGH MARCH 31, 1981
                 Amount                  Number                         Amount           Total Amount
                                                                    10L1L8.Q-3L31/81

Judgments       $753,695*                     6                         $996,000         $1,749,695

S                301,401                      7                           42,599**          344,000
Restitution      178,950                      7                            6,700            185,650
or   s

                ing report did not include a judgment for $140,000 entered
                   contractor@
         figure does not include the estimated value of a house the
           of whi   will go to GSA as part of a settlement agreement.


                                                   Figure 6

    C.   DEBARMENT AND... SUSPENSION REFERRALS
                  ,""""



     During this reporting period we made 45 suspension referrals
and 97 debarment referrals to appropriate         officials. Figure
7 illustrates the suspension and debarment actions taken by GSA
duri    this      ting    iod as the result of referrals made by
this Office.


                                ACTIONS TAKEN ON REFERRALS FOR


                                                                                         Referrals



S        ions             2              45              NA**               **       5       35
                          45*            97               4                        17       108

                                    d             accurately
                                                     i   as




                                                                                             res~



                                                                                                  thi



                                                    Fi            e 7

                                                              7
    D.        ADMINISTRATIVE REFERRALS
    As indicated in Figure 8, 113 referrals for administrative
action were made during this reporting period. (Not included in
this figure are those recommendations made as part of inspection
and audit reports.)  In addition to the referrals indicated in
Figure 8, we made 132 administrative referrals for informational
purposes only.



   REFERRALS FOR ADMINISTRATIVE ACTION TO AGENCY OFFICIALS
                  AND RESULTS OF REFERRALS

                     Referred for         Administrative    pending
 pending with        administrative       action taken by   with
 agency offi-        action 10/1/80       agency 9/30/80-   agency
 cials 10/1/80       -3/31/81             3/31/81           3/31/81

         34               113                  60             87



                                          Figure 8

    E•        SUBPOENAS

    We issued 56 subpoenas during this reporting period in support
of our audit, inspection and investigative activities. During
the past two years, we have served a total of 158 subpoenas. Of
these, nine were served upon financial institutions pursuant to
Section 1105 of the Right to Financial privacy Act of 1978 (12
U.S.C. 3401 et seq.). They compelled the production of the
financial records of nine customers of these institutions. In
addition, the financial records of one other individual were
obtained through his authorization, pursuant to Section 1104 of
the above-cited statute.

    F.        AUDIT REPORTS ISSUED

    We issued 431 audit reports during this reporting period.
They are listed in Appendix A, and the findings of sel      audits
are discus     in Section VII.A. Of the 431 audit reports issued,
187 were internal audits. Their distribution among the
services is illustrated in Figure 9. The remaining 244 audits
were contract audits. Figure 10 shows how many addres




                                     28
type of GSA contract and gives the amount of savings recommended
with regard to contracts of        type. As Figure 10 indicates,
the       act audits recommended a total savings of $52,688,000.
Figur.e 11 shows that of this amount, $3,878,000 has already been
recovered and $1,390,000     given. At this point it is difficult
to estimate accurately what percentage of the recommended savings
will eventually be recovered. However, Figure 11 does provide
some gui      • With regard to contract audits issued during each
    the four preceding fiscal years and during this reporting
period, it gives the amounts recovered and forgiven during this
reporting period. On the basis of this information, we can esti-
mate that as to $52,688,000 of savings recommended in contract
audits issued during this reporting period, the recovery rate
wi    be approximately 59 percent.


                     INTERNAL AUDIT REPORTS

                                                 Re,Eorts Issued
                                                 Number      %
Office    Management, policy & Budget              36      19
Public Bui ings Service                            60      32
Federal Supply Service                             42      23
Federal property Resources Service                 12       6
Automated Data and Telecommunications Service       5       3
National Archives and Records Service               2       1
Other (presidential Commissions, etc.)              3       2
Transportation and Public utilities Service        27      14
Total                                             187     100%


                              Figure 9
                        CONTRACT AUDIT REPORTS
                             Number of           Recommended Savings
~:ee    of Audit              Re:eorts             (in thousands)
construction
  Architect-Engineer
  Proposals                        27                 $ 1,721
  Claims                           37                  10,733
  Initial Pricing                  21                   1,600
  Change Orders                    10                     783
  Construction Management           4                     196
  Lease Alterations                 4                   1,317
  Lease Escalations                18                   9,715
  Terminations                      4                   2,803
  Total Construction           125                    $28,868
 ther
  Multiple Award Contracts
       Preaward                    43                $13,092
       Postaward                   16                   7,551
  Time and Material
    Contracts                       9                      57
  Preaward Proposals               28                  1,093
  Cost Type Contracts               3                      58

  Other
Total Other
Total Contract Audits           244                  $52,688

                              Fi         e 10


                                    30
                             AMOUN~S RECOVERED AND FORGIVEN
                          OCTOBER 1ft 1980 ~~~OUGH MARCH 31, 1981
                        Audits Unresolved                       Resolved              Unresolved
                         as of 10/1/80                       10/1/80-3/31/81         as of 3/31/80

                        Amount Unresolved                  Recovered Forgiven            Amount (in
FY                No.                            No.         (in thousands)          No. thousands)

77                 34         $5,743                   3           0     $     399    31     $ 5,344
78                 46          5,808"'"                2          19             5    44       5,963
79                 90          6,131                  19         322         2,647    71       3,162
80                250**       46,362**                49       6,476         3,050   201      36,836

*This figure was inaccurately reported to Congress in November 1980.

**The figures from which these figures were derived were inaccurately
reported to Congress in November 1980.
      Contract Audits                        Resolved                          Unresolved
      10L1L:80-3L:31/81                 10L:1L:80-3L:31/81                       3L:31L:81
           Amount Questioned              Recovered Forgiv~~                       Amount
No.                               No.       (in thousands)              No.     (in thousands)

215*         $52,688              45        3,878            1,390       170     $47,420

*A1though 244 contract audit reports were issued during this reporting
period, only 215 of them questioned costs. Consequently, only these 215
are appropriate for inclusion in this figure.


                                            Fi        e 11

      G.
      Duri                                                  ts were is
                        in        x                       ess 1082
                         ects, contracts                s    esenting
                                     services     worko      distribut
                                       a is set out in Fi   e 12. I
                           t           ti           tance is given in


                                ts i
                               excess                                       savi
                                     tive i                          work either




                                                 31
                 Reports            s   Value of Contracts
                  s

Leasing            48         47            $ 3,900          $   200*
Construction        4         41             52,900

Buildings
Operations         23        946              4,700              200

Energy              2          2                                 200

Federal Supply     21
Total              98      1,082            $80,000          $2,900
 *Excluded from this figure are those savings which would be r
    our recommendations for improving the Fast Track Leasing       am
 were fully implemented. See Section III.B. These savi       would
   gnificant; however, we cannot accurately estimate them at this

                                   Figure



   H.     INVESTIGATIONS
    During this reporting    iod 366 investigative cases were
opened. Figure 13 illustrates their distribution among six
       ies     nvestigations. Some     the results    our
investigative   forts are discussed in Sections VII.e     VII.De




                                   32
                     INVESTIGATIVE WORKLOAD ACTIVITY
                       Pending                          Pending
Cas~    Categorx       10/1/8~      Opened     Closed   3/31/81
White collar crime
(fraud, bribery,
embezzlement, and
false claims)            433*            180    186       427
Other crimes in
GSA-occupied space        77              58     45        90
Contractor
suspension/debarment      79              31     22        88
Employee .misconduct      47*             30     35        42

Proactive
investigation             38*             21     12        47
Other                     36*             46     26        56
Total                    710*            366    326       750

*These figures differ slightly from those given in the pre-
ceding report because, during the preceding reporting period,
the definition of a "closed case" was inconsistently applied.



                                 Figure 13




                                    33
34
VII.        HIGHLIGHTS OF ACTIVITIES

       A.      OFFICE OF AUDITS
    The Office of Audits conducts internal and contract
audits. The internal audits address only GSA operations,
and they generally result in recommendations for the more
effective, efficient, and economical accomplishment of
agency functions. Contract audits focus on GSA contractors
or potential contractors.

    Summarized below are five important internal audits which
were completed during this reporting period:

               1.   Multiple Award Contracting for Home Enter-
                    tainment EquiEment
    Home entertainment equipment such as hotel-type tele-
visions, phonographs, radios, and video cassette recorders
is currently procured through multiple award contracting,
and the individual items are listed on FSS supply schedules.
A recent audit disclosed that multiple award contracting for
such items may not be cost   fective.  It was estimated that
if contracts for these items were awarded through a com-
petitive bi ing process, at least a 10     cent cost savings
could be realized in this $2.5 million program. Most of the
specific recommendations made in the audit report have been
implemented, and FSS is determining the most economical
means of procuring this type of item.

                    Problems in the Award and Administration


                           a re    t of inaccur         estimating
the                           in drayage contract solicitations,
GSA                             lowest prices       sible for drayage
                                     case       estimated weight
                                                    weight actually
                                        This error in estimation
                                           .At       recommendation,
                                        a      tern whi   would use
                                        ti              contract


                                       ems




                                   35
    Other audits of TPUS motor pools have indicated that
motor pool mechanics and repair equipment are underutilized
and that a significant percentage of gasoline for motor pool
vehicles is being purchased from private concerns located
close to the motor pools. We plan to continue to review
this area.
          4.        Abuse of Government Travel
    Reviews of official travel by GSA officials have
revealed that some officials have traveled at Government
expense to save money on personal trips and others have made
serious errors in their travel expense claims. It was also
found that GSA officials have on at least two recent occasions
authorized conferences at locations far from the duty stations
of many of those attending the conferenceso The result was
a substantial increase in the total respective costs of the
conferences due to high travel and subsistence costs. The
matter was referr    to the Office of Investi tions for
further investigation, and the audit reports were issued to
the Administrator for consideration of possible disc    inary
action when the invest!    ions are completed. We
several recommendat      which should help to prevent similar
problems in the future.
          5.
    Our review of the          tern used by NARS in monitoring
activities of those to             it awards    ants concluded that
the system                        In many cases
receive                            grant     ects
recover in                         those funds which
not
r
a more
grantee
    has        un
          6.                              station on   u.        ian

     We reviewed GSA s
in New York State
station. GSA is
fac Ii      than
    t (1)        ais
  ficiencies,
     ti                                                           id
not
     new
sever     r
      of situation.
                                   36
    Contract audits provide essential information to con-
tracting officials and enable this Office to detect improper
and illegal practices at an early stage. The findings of
some major contract audits completed during this reporting
period are summarized below:
         1.   Main Tower Building, Dallas, Texas
    We reviewed a proposed lease escalation of $5.5 million
which would cover increased building service costs and taxes
for the next five years of the lease in question. Finding
unallowable expense projections and exorbitant escalation
factors, we recommended that the proposed escalation be
reduced by $4.1 million.
         2.   National Oceanic and Atmospheric Administra-
              tion (NOAA) Western Regional Center Site,
              Seattle, Washington
    Our review of a $2.5 million claim for damages due to
site problems encountered during dredging disclosed that the
contractor's production rate had been improperly calculated
and that the contractor had known of the site conditions
which were encountered. We recommended that $2.3 million
of the claim be rejected.
         3.   Termination of Construction/Lease Agreement
              for Federal Office Space, Riverside,
              California
    We recommended a $2.4 million reduction of a $2.5 million
proposal by a contractor to terminate its agreement to con-
struct and lease to the Government an office building in
Riverside, California. The recommendation was based on the
contractor's inability to substantiate the amount claimed
and on the disallowance of the anticipatory profits claimed,
as required by the FPMR.
         4.   Federal Office Building and parking Facility
              in Detroit, Michigan
    We reviewed a $5.4 million claim submitted by a construc-
tion contractor and found that $2.2 million of it was not
supportable. On the basis of PBS's technical assessment~
we concluded that the entire claim should be rejected.




                             37
         5.    Leased Building in St. Louis, Missouri
     A lessor submitted to GSA a $3.1 million escalation proposal
for operating costs. We recommended that the proposal be rejected
as unsupportable. In addition, we recommended that over the next
five years of the lease GSA should receive a credit for $1 million
it has already paid for unsupported operating costs.
    B.   OFFICE OF INSPECTIONS
     The primary functions of the Office of Inspections are to
deter fraud through a highly visible presence within the
contracting programs, to uncover mismanagement practices, to make
recommendations to prevent their recurrence, and to coordinate
with the Office of Investigations in proactive efforts to uncover
fraudulent schemes within the Government. Some of this Office's
more significant reviews are summarized below:
         1.   Washington Bicentennial Building,
              Springfield, Illinois
     GSA recently leased 64,191 square feet of office space in
the Washington Bicentennial Building at an annual rental of
$506,015. Our review of the lease disclosed that (1) as a result
of late delivery of the space, the Government lost $157,200, and
(2) as a result of GSA's poor planning of the move into the
Bicentennial Building from another building, GSA paid a total of
$122,755 for vacant space in both buildings. We recommended
that GSA recover from the lessor the damages suffered due to the
late delivery of space.
         2.   Internal Revenue Service Payment Center,
              Detroit, Michigan
     GSA leases this center at an annual rental which exceeds
$1.5 million. Our review indicated that when the lease was
renegotiated, GSA allowed the lessor to insulate itself from the
burden of increased operating expenses and, therefore, to have
no incentive to run the center in a cost effective manner. We
calculated that to date GSA has lost $1.7 million in leasing this
building as a direct result of its failure to receive a fair
return for rights relinquished during the lease renegotiation.
This case was referred to the Office of Investigations for
further review.




                              38
         3.   Federal Office Building and Courthouse,
              Wheeling, West Virginia
     A review of a repair and alteration project for this
building revealed that the contract was awarded for $400,000
more than the Architect/Engineer estimated and that more
effective and thorough review of the building's requirements
during the development and design phases could have saved
the Government approximately $1 million of the $1.6 million
spent.
         4.   Review of Wiping Rag Procurements
     Through the GSA Hotline we received an allegation of
impropriety in GSA'S procurement of wiping rags. with the
assistance of the Office of Investigations, the Office of
Inspections began a nation-wide review of wiping rag procure-
ments and a quantity and quality review of the rags received
by GSA's East Coast depots. The review has disclosed signi-
ficant problems as to the procurement procedures used, the
Commercial Item Description for this commodity, and the
quality of rags being accepted by GSA.
         5.   Contracts - PBS Field Offices
             a. Review of a term contract for carpets revealed
that the contractor had in several instances charged GSA for
more carpet than had actually been provided. The case was
referred to a united States Attorney who declined it only
after the contractor agreed to make restitution.
              b. We found that one field office is paying an
average of 29 percent more for alterations to leased space
than is considered reasonable. It was estimated that
approximately $17,000 in excess payments has resulted from
lack of serious negotiations and inaccurate estimates by the
field office.
             c. One field office is having serious problems
with air-conditioning and heating. For example, we found
that although only 54,000 square feet in one building
require air-conditioning on an over-time basis, 439,000
square feet are being air-conditioned in this manner. The
result is an annual loss to GSA of $132,000. We found also
that three other buildings had their heating, ventilating,
and air-conditioning (HVAC) systems adjusted to provide 25
percent fresh air although GSA's energy conservation guide-
lines allow only 10 percent fresh air. The result was a
greater than necessary use of energy.
             d. Our review of overall procurement activity
in a field office disclosed several significant problems.
Overpayments totalling $17,000 were identified.

                              39
    C.   OFFICE OF INVESTIGATIONS

     As reported in Section VI.A, 120 referrals for prosecution
were made during this reporting period. Of these, 95 were the
result of investigations developed by the Office of Investiga-
tions, often in conjunction with one or more other components of
the Office of Inspector General. Selected referrals for prosecu-
tion are summarized below:

         1.   Time and Material Contracts

     Several referrals involved fraud in the performance of con-
tracts to repair heavy equipment. The Office of Inspections
assisted in developing many of these cases.  In one case our
investigation disclosed that a contractor whose Government
contracts total $1.1 million had billed GSA for work that had not
been performed, although the billings had been accompanied by
certifications that the services had been performed. The presi-
dent of one of the contractor's subsidiaries admitted to altering
documents so that they corroborated the certifications.

         2.   Federal Donated Property Program Fraud
     One of our investigations relating to the Federal Donated
property Program disclosed that two officials of an authorized
donee and a private businessman had acquired surplus property
worth in excess of $2 million and either converted it to their
own use or sold it for personal gain.

         3.   Bribery of PBS Employees

     A PBS contractor alleged that a PBS contract inspector had
solicited a $600 bribe in connection with an offer to reduce the
amount of damages being assessed against the contractor. Through
consensual monitoring, our investigation substantiated the
allegation. We also found that the PBS employee had received
payments from two other contractors.

         4.   Janitorial Contracts

     One of the latest referrals in this area involved a contrac-
tor which had a contract with GSA for more than $81,000. Surveil-
lance during our investigation indicated that work was not being
accomplished by the contractor as he claimed and, consequently,
that he was sUbmitting fraudulent claims to       The firm, its
president, and its business manager have been suspended from
doing business with GSA pending resolution        investi    ion.

         5.       truction

     A contractor's employee alleged that he was not       paid
at a rate consistent with the          e requir
tractor's    eement wi   GSA   Our investi   ion

                              40
allegation. Of the 93 certified payrolls submitted to GSA, all
had been falsified. Twenty-seven employees had been paid a total
of $8,000 less than the amount required by the Davis-Bacon Act
and the Contract Work Hours and Safety Standards Act.
     During this reporting period, a number of indictments and
convictions resulted from criminal referrals made by this Office
during this and preceding reporting periods. See Section VI.A.
Three such cases which were developed by the Office of Investiga-
tions are summarized below. The first two were developed in
coordination with other components of this Office.
         1. A metal broker in Chicago converted to his own use
40,000 pounds of surplus lithium and 32,000 pounds of titanium.
These metals were part of the Federal Donated Property program,
and their respective values were $113,800 and $150,900. The
broker went to trial and on December 19, 1980, was convicted on
15 counts. He was sentenced to five years' probation and was
fined $25,000.
         2. Employees of the Government Repair Shop were selling
Government office machines and were performing repairs on pri-
vate machines on Government time and using Government parts.
Three of the Government employees pled guilty to felony counts.
Two were sentenced to six months' imprisonment and three years'
probation. The        was sentenced to three years' probation. A
co-conspirator who is not a Government employee has been indicted
and is awaiting tri

         3. An alert PBS contract specialist alleged that a con-
tractor had submitted a bogus invoice which purported to reflect
the purchase of several items needed to perform an approximately
$23,000 contract with GSA. On the basis of this invoice, the
contractor had been paid $5,600. Our investigation confirmed
that the invoice was not authentic and uncovered two more bogus
invoices which had been submitted to GSA. The case was referred
to the united States Attorney. The contractor pled guilty and
was sentenced to three years' imprisonment to be suspended upon
his payment of $5,600 in restitution.

     D.   OFFICE OF SPECIAL PROJECTS
      The   fice        i    P  ects (1)    ovides legal assistance
relating to      functiohs of     Off    of Inspector General;
 (2) conducts reviews, audits, and investi     ions, both indepen-
     ly and in      ination with the Office's other components;
and (3) serves as a point of contact wi     ot     agencies and
other law            t authorities,    ludi     other Offices of
I      tor           Some                      cant activities
                     f    of                    during this



                              41
         1.   Recovery of Interest from Sale of Titanium
     In 1972, GSA entered into a contract under which it was to
purchase titanium sponge in exchange for excess materials, pri-
marily cobalt, available under the Stockpile Disposal Programo
The contract permitted the contractor to obtain payment materials
in advance of titanium deliveries to G~A provided that the
contractor paid interest during the interim period.
     In reviewing this contract we found that for a brief ti~e
the value of payment materials received by the contractor had
exceeded the value of the titanium delivered to GSA and that GSA
had never billed the contractor for the interest which had accrued
during this period. We notified the appropriate officials of
this fact and recommended that collection proceedings be initiated.
As a result, the contractor remitted $266,997.71 to GSA.
         2.   Improper Electrical Charges
     The Office of Special projects with the assistance of the
Office of Inspections reviewed electrical utility usage in two
buildings in which GSA rents space. The reviews revealed that
GSA is being metered for and is paying for electricity used by
private tenants and/or for public areas in the buildings. We have
estimated that $50,000 and $100,000, respectively, could be
recovered for improper billing for electricity in these two
buildings.
         3.   Referrals for Prosecution
     Of the 120 referrals for prosecution made by the Office of
Inspector General, 25 were the result of cases developed by
the Office of Special Projects, often in coordination with other
components of the Office. Summarized below are some types of
referrals for prosecution made by the Office    Special projects:
                 a case in which a small business GSA contractor
                 overbil    the Government     the supplies it
                 provided,
                 a case in which a small business GSA contractor
                 billed the Government for guard services which
                 were not provided,
                 a case in which a number    GSA employees
                          gratuities and bribes from a GSA con-
                 tractor and conspired with that contractor to
                 defraud the Government, and
                 a case in which the signature on an   fidavit
                 supporting an individual sure   bond had been
                 forged. See Section III.D.

                              42
         4.   Cooeeration With Other Agencies and Deeartments
     During this reporting period, a number of cases were
referred to other agencies for consideration of administrative
action. For example, when it was found that a small business
contractor had overbilled the Government for stenographic
services, we recommended that the matter be referred to the
SBA for a COC determination. Our recommendation was accepted,
the referral was made, and the SBA declined to issue a COC to
the contractor. Other agencies and departments to which
referrals for administrative action have been made include the
Department of Labor, the Department of the Army, and the
Department of the Navy.
     As discussed in section IV.A, members of our Office have
participated in OMB's drafting of Government-wide suspension and
debarment regulations and have testified before a Senate sub-
committee on problems relating to suspension and debarment.




                              43
                    APPENDIX A



List of all audit reports issued during the period
   from October 1, 1980, through March 31, 1981
                            INTERNAL AUDITS

                                                                 Date of
    Number                             Title                     Report
    ----"""-----
    52-9l82-044-F(1)    One Recommendation Not Implemented
                        Although Improvement Has Been Made,
                        PBS and Finance Continue to Have
                        Problems Administering Functions
                        Associated with the Federal Buildings
                        Fund, Region 4                          10/02/80

    70-9321-099         Increased Emphasis is Needed in the
                        Energy Conservation Program, PubliC
                        Buildings Service, Region 9             10/09/80

    3U-00702-05-05      Letter Report - Interagency Motor
                        Pool Operations, Chicago, Illinois      10/10/80

    54-8329-033-F(1)    Followup - Review of Obligations
                        Under Section 1311, Public Law 663,
                        Federal Buildings Fund, Fiscal
                        Year 1978, Region 3                     10/14/80

    70-9178-022         Hazardous Health Conditions in
                        New York City, GSA, Region 2            10/14/80

J   5D-00154-0 6-06     Significant Internal Control Weaknesses
                        Can Cause Losses to the General Supply
                        Fund                                    10/20/80

    77-9224-099         Contracting Procedures and Adminis-
                        trative Controls Over Alterations in
                        Leased Space Need to be Improved,
                        Region 9                                10/22/80

    3C-00207-l0-l0      Controls to Insure Authorized Use
                        and Disposal of Surplus Property
                        Within the State of Washington Need
                        to be Implemented                       10/22/80

    5C-10283-00-22      Conference and Travel Expenditure
                        Abuses by GSA Senior Officials          10/22/80

    3l-;8l58-022-F(1)   Short Form Followup - Statistical
                        Sampling Applications and Inventory
                        Procedures for Supply Distribution
                        Facilities, Region 2                    10/23/80

    5E-00540-l0-l0      Senior GSA Official Abuse of
                        Government Travel for Personal Gain,
                        Region 10                               10/24/80




                                 A-I
                                                               Date of
Number                                    Title                Report
                     -----------------------
35-9421-099-F(1)     Followup - Improvement Needed in the
                     Operations of West Las Angeles Self-
                     Service Store, Region 9                  10/27/80

54-8091-044-F(1)     Short Form Followup - Interim Audit
                     of Yearend Obligations, Region 4         10/27/80

54-8329-044-F(1)     Short Form Followup - Obligations
                     Under Section 1311, P.L. 663, Region 4   10/27/80

30-00215-09-09       Some Improvements Needed in Processing
                     Inventory Adjustments, Region 9          10/28/80

4M-00269-09-09       Improvement Needed in the Equipment
                     Inventory Operations of the Local
                     Telephone Service Program, Automated
                     Data and Telecommunications Service,
                     Region 9                                 10/28/80

4D-00452-09-09-I-l   Procurement Practices at the Phoenix
                     Field Office Need Improvement,
                     Buildings Management Division, Public
                     Buildings Service, Region 9              10/28/80

4D-00452-09-09-1-2   Letter Report - Controls over
                     Alteration and Repair Contracts,
                     Tucson Field Office, BMD, PBS,
                     Region 9                                 10/28/80

3C-00624-01-01       Letter Report - Area Utilization
                     Officers' Activities are Satisfactorily
                     Conducted                               10/28/80

30-00711-06-06       Weaknesses in Region 6 Self-Service
                     Store Operations Provide Opportunities
                     For Improper Actions                     10/28/80

70-9321-033          Shor     s of Non-Renewable Energy
                     Sources Demands that Utilization and
                          ervation Programs be Given High
                     Priori                                   10/29/80

4D-00687-06-06       Letter Report - Minor Weaknesses in
                     Procurement Practices at the Federal
                     Records Center, Buildings Manq.gement
                     F Id Of ice, St. Louis Missouri          10/2   o
31-00123-11-11       Improv ng the Award and Administration
                     of         Transportation Contracts      10/31/80




                               A-2
                                                                Date of
Number                                   Title                  Report
4G-90032-11-11        Alterations, Improvements and Repairs
                      in Leased Space, National Capital
                      Region                                   10/31/80
54-9185-088-F(2)      Short Form - Second Followup - Review
                      of Overtime Payments, Region 8           11/04/80

5D-00088-10-10        Need for Improved Reviews of
                      Obligations at Year End                  11/07/80

3U-00140-07-07        Letter Report - Interagency Motor
                      Pool Operations, New Orleans,
                      Louisiana                                11/07/80

30-00618-08-08        Letter Report - Warehouse Refusals,
                      Federal Supply Service (FSS),
                      Supply Distribution Facility, Region 8   11/10/80
54-8091-055-F(1)      Short Form Followup - Review of
                      Yearend Obligations, FY 1977,
                      Region 5                                 11/14/80

54-8329-055-F(1)      Short Form Followup Review of Yearend
                      Obligations, FY 1978, Section 1311,
                      Federal Buildings Fund, Region 5         11/14/80

30-00223-07-07-F(1)   Short Form Fo11owup - Need for Improved
                      Management at Dallas Self-Service
                      Store                                   11/14/80
3G-00042-07-07-F(1)   Short Form Followup - Improvements
                      Needed in Internal Controls at
                      New Orleans Self-Service Store           11/18/80

3U-00224-10-10        Improved Controls Needed at
                      Interagency Motor Pools                  11/19/80

49-9225-022-F(1)      Fo11owup - Procedures for Awarding
                      Annual Contracts for Handling
                      Strategic Materials      Revision        11/20/80

5D-80042-04-04-F(3)   Third Fo11owup - Processing Vouchers
                      for Payment, Reg    4                    11/20/80

5D-80043-08-08-F(2)   Short Form - Second Fo11owup on
                      Recommendations Contained in Audit
                      Report No 54-8329-088 The Validity
                      of Obligations Totaling $512,923 Was
                      Question Ie for Fiscal Year 1978
                      in the Federal Buildings Fund,
                      Region 8                                 11/24/80




                               A-3
                                                                  Date of
Number                                  Title                     Report

3C-00327-10-10        Implementation of Controls to Ensure
                      Authorized Use and Disposal of
                      Surplus Property Needed Within The
                      State of Oregon                         11/25/80

4G-00345-02-02        The Replacement of An Old Border
                      Station With a New One Increased
                      Annual Rent by $270,000 but was
                      of Questionable Need                    11/25/80
5Z-00677-11-11        Administrative Practices and Procedures
                      of the Committee for Purchase From the
                      Blind and Other Severely Handicapped
                      Generally Satisfactory - Minor Improve-
                      ments Needed                            11/26/80

54-8151-100-F(2)      Short Form - Second Followup - Audit
                      of Administration and Control of
                      Travel, Region 10                       11/28/80

4E-00279-06-06-F(1)   Short Form Followup - Incomplete
                      Documentation in A-E Contract Files     11/28/80

3C-00372-06-06        Administration of Region 6 FPRS
                      Personal Property Sales Needs
                      Improvement                             11/28/80
6D-00684-04-04        Letter Report - Crude Opium Gum
                      Inventory at Fort Knox, Kentucky        12/01/80

4E-60034-11-11-F      Fo11owup - Management Controls over
                      New Construction Change Orders,
                      National Capital Region                 12/02/80

30-00606-04-04        Letter Report - Leased Motor Pool
                      Veh ic les                              12/02/80

4D-00687-04-04        The Jackson, Mississippi Buildings
                      Management Office Does Not Always
                      Employ Good Procurement Practices       12/03/80

3N-10216-07-07        Letter Report - Federal Supply
                      Serv    Small Purchases are
                      Satisfactory                            12/03/80
85-9222-113-F(2)      Short Form     lowup - Redistribution
                      and Reutilization of ADP Equipment      12/04/80
3C-00372-01-01        Additional Internal Controls Needed
                      to Ensure the Conti    Success of
                      the    ion 1 Sales                      12/0      o
                                                   Store
                                                              1        80
                                                                Date of
Number                                 Title                    Report
34-9334-077           Short Form Followup - Management
                      Improvements Needed at Houston
                      Motor Pool                               12/08/80

30-80012-07-07-F(2)   Followup - Self-Service Store
                      Operations, Region 7                     12/08/80

4D-00274-08-08        Procurement of Repair and
                      Alteration Work, Public Buldings
                      Service, Buildings Management Field
                      Office, Aberdeen, South Dakota,
                      Region 8                                 12/08/80

4D-00687-08-08(a)     Procurement of Repair and
                      Alteration Work, Public Buildings
                      Service, Buildings Management Field
                      Office, Fargo, North Dakota, Region 8    12/08/80
4D-00687-08-08(b)     Procurement of Repair and Alteration
                      Work, Public Buildings Service
                      Buildings Management Field Office,
                      Missoula, Montana, Region 8              12/08/80

4D-00274-09-09-F(1)   Short Form Followup - Need to Strengthen
                      Procurement Practices at the West Los
                      Angeles Field Office                     12/11/80
30-00716-08-08        Improvements Needed in the Inventory
                      Procedures at Self-Service Store #60
                      Denver, Colorado                         12/12/80

3C-00372-08-08        Need for Improvements in Controls
                      Over Reports of Personal Property
                      Available for Sale, Federal Property
                      Resources Service (FPRS), Region 8       12/15/80

34-9143-022-F(1)      Short Form Followup - Need for
                      Improved Administrative Procedures
                      in Motor Pool Operations, San Juan,
                      Puerto Rico                              12/16/80

57-8331-113-F(2)      Short Form Followup - Second Followup
                      on Review of Overtime Payments          12/16/80

30-00746-07-07        Emp      Reduction Needed in
                      Oklahoma City Self-Service Store        12/16/80

5Z-00676-11-l1        Administrative Procedures and
                      Practices of the U.S. Metric
                      Board - Some Improvements Needed        12/17/80

5D-00088-02-02        Yearend Review of Federal Buildings
                      Fund Accounts Needs to be Improved,
                      Region 2                                12/22/80

                               A-5
                                                                Date of
Number                                    Title                 Report

30-00714-01-01        Letter Report - Physical Inventories
30-10205-01-01        at the Boston and Manchester Se1f-
                      Service Stores                           12/22/80
30-00620-01-01        The Economic Viability of the
                      Boston Self-Service Store is in
                      Question, Region 1                       12/23/80

3U-90020-04-04-F(1)   Short Form Fol1owup - Opportunties
                      Exist for Reducing Cost at the
                      Atlanta Motor Pool if Payment and
                      Procurement Practices Were Improved      12/24/80

4L-90049-04-04-F(1)   Short Form Fol1owup - Need for
                      Improvement in Administrative
                      Practices, Procedures and Internal
                      Control at the Interagency Data
                      Systems Facility, Huntsville, Alabama    12/24/80
35-80ll-l00-F(3)      Short Form Followup - Third Fol1owup
                      on Recommendations in Limited Review
                      of Self-Service Store Operations,
                      Seattle, Washington                      12/29/80

73-9324-066           Controls at the Kansas City South
                      Buildings Management Office Need to
                      Be Strengthened to Prevent Over-
                      payments to Contractors                  12/29/80

5Z-00675-l1-ll        Increased Management Emphasis Should
                      Be Given to the Administrative
                      Practices and Procedures of the
                      Occupational Safety and Health Review
                      Commission                               12/29/80

6J-00685-00-2l        Letter Report to the Inspector General -
                      Fol1owup on Possib   Unauthorized
                      Procurement of Furniture                 12/29/80

4D-90037-09-09A-F(1) Short Form Fo11owup - Procurement
                     Controls at Golden Gate Field Office      12/30/80
4D-90038-09-09B-F(1) Short Form Followup - Procurement
                     Controls at     Fresno F Id Office        12/30/80
35-9136-022-F(1)      Fo11owup - Self-Service Store
                      Operations in San Juan, Puerto Rico
                      Should be Improved                      12/31/80
4D-10230-10-10        Letter          - Building Management
                      Fi Id                 , Oregon,
                         ion                                  12/31/80


                                A-6
                                                                 Date of
Number                                    Title                  Report
4D-00452-02-02B       Minor Procurement Deficiencies Were
                      Noted in a Review of the PBS Buildings
                      Management Field Office, Newark,
                      New Jersey                                01/02/81
6J-00685-00-21        Letter Report to the Administrator -
                      Followup on Possible Unauthorized
                      Procurement of Furniture                  01/02/81
4D-00274-04-04-F(1)   Short Form Followup - Buildings
                      Management, Thomasville, Georgia,
                      Region 4                                  01/05/81
3U-00648-08-08        Vehicle Fuel Conservation Programs
                      Not Fully Implemented in Region 8         01/06/81
4D-00452-02-02A       Procurement Controls Should be
                      Improved at JFK Airport - PBS
                      Buildings Management Field Office         01/07/81
4D-00452-06-06        Improved Controls are Needed at
                      the Kansas City North Buildings
                      Management Office to Assure That
                      Work Contracted for is Received           01/12/81
4G-00504-06-06        Better Utilization of Space in
                      Two St. Louis Buildings Could
                      Result in Savings to the Government       01/12/81
4E-00079-09-09        Improvement Needed in Preparation
                      and Use of Government Estimates,
                      Design and Construction Division,
                      Public Buildings Service, Region 9        01/13/81

30-00218-04-04-F(1)   Short Form Followup - Self-Service
                      Store, Jacksonville, Florida,
                      Region 4                                  01/13/81
6B-00512-05-09        Improvements Needed in Negotiating
                      Contracts and Enfor ng Contract
                      Specifications, Federal Supply Service,
                      Region 5                                  01/13/81
3K-00041-02-02        Improved Procedures are Needed at
                      the FSS Quality Control Laboratory,
                      Region 2                                  01/14/81
4D-I0223-03-03        Letter Report - Pittsburgh Buildings
                      Manager Field Office, Region 3            01/14/81




                                A-:
                                                                Date of
Number                                       Title              Report

4D-00687-01-01        Letter Report - Procurement Controls
                      Satisfactory at Burlington, Vermont,
                      Field Off ice                            01/14/81
3U-00535-08-08        Need for Improvements in Motor Pool
                      Operations at Bismarck, North Dakota,
                      Region 8                                 01/15/81

30-10371-07-07        Letter Report - Self-Service Store
                      Operation, Little Rock, Arkansas         01/16/81

3I-00047-09-09-F(1)   Short Form Followup - Operations
                      of the Redwood City Motor Pool Can be
                      Improved                                 01/19/81
30-00618-05-05        Letter Report - Warehouse Refusals and
                      Quantities Shipped                       01/19/81

3U-90021-04-04-F(1)   Three Recommendations not Implemented
                      at the Raleigh, North Carolina, Motor
                      Pool                                     01/20/81

4G-90036-07-07-F(1)   Followup - Improvements Needed in
                      Procurements "of Lease Alterations,
                      Region 7                                 01/20/81

4D-00687-02-02(b)     Letter Report - Small Procurement in
                      Buildings Management Field Office,
                      225 Cadman Plaza,       1yn, New York,
                      is        ly Being Performed Properly    01/21/81

4D-00687-02-02(a)     Letter        - Small Procurement
                      Buildings Management F Id Office at
                      252 7th Avenue, New York City
                      General   Being Performed P       y      01/22/81

5A-00459-10-l0        Finance D              igat    Reviews
                      Shou   Be                                01/22/81

4D-00452-04-04-F(1)   Short Form             Better I    ction
                      Procedures         By the Louisville
                      Ken        Bu Iding Man ement Of ice     01/2       1

6J-00354-02-02                 Procedures        Perf    ng
                                            of the Narcoti
                                  are                          01     3   1
                                                                    Date of
Number                                   Title                      Report

30-00620-10-10        Need for Improved Inventory Controls
                      for Self-Service Store Operations,
                      Seattle, Washington, Region 10               01/26/81
34-6018-113-F(3)      Short Form Third Followup -
                      Interagency Motor Pool Operations,
                      Philadelphia, Pennsylvania                   01/26/81
4D-00452-10-10        Faulty Procurement Practices in PBS
                      Field Office Require Corrective
                      Action, Region 10                            01/26/81
4D-00687-10-10        PBS Field Office Needs to Comply with
                      Procurement Requirements                     01/26/81
30-900Gl-ll-ll        Increased Management Attention Needed
                      at Department of Labor Self-Service
                      Store                                        01/27/81

31-9132-033-F(l)      Followup - Improving Integrity of
                      of Inventory Records                         01/27/81

3G-00045-09-09-F(1)   Short Form Followup - San Diego
                      Self-Service Store                           01/27/81
3U-00147-11-11        Full utilization of Available Facili-
                      ties and Improved Procurement Practices
                      Could Reduce Costs at the Richmond
                      Motor Pool                              01/27/81
6B-00515-05-05        Improper Pricing, Award and Administra-
                      tion of Selected 8(a) Contracts and
                      Related 8(a) Program Abuses             01/27/81

52-9473-011-F(1)      Short Form Followup - Motor Pool Term
                      Contract Invoices are not Being Properly
                      Processed                                01/28/81
5D-00088-06-06-F(1)   Short Form Fol1owup - Inadequate
                      Management Control of Fede    Buildings
                      Fund ObI 9 t                            01/28/81
34-9150-09 9-F (1)          Form                 D       Motor
                                                                   01/29   1

3   9133-033-F(1)           Form                     ures
                           ining to                    Procure·-
                      ment   an                                    01/30/81
                                                                  Date of
Number                                   Title                    Report

3U-00228-01-01        Questionable Efficiency of the Portland,
                      Maine, Interagency Motor pool, Region 1    01/30/81

4E-00278-06-06        Regional Construction Contract Award
                      and Administration Procedures Need
                      Improvement                                01/30/81

SD-00088-11-11        Increased Management Control Necessary
                      to Effectively Administer the Federal
                      Buildings Fund                             01/30/81
60-6071-l13-F(2)      Letter Followup Report - National
                      Archives Trust Fund                        02/03/81

30-90014-08-08        Short Form Followup on Recommenda-
                      tions Contained in Audit Report
                      No. 32-9348-088 (New File No.
                      30-90014-08-08), Region 8 Should
                      Re-Evaluate Method of Procuring
                      Fire Fighters· Clothing                    02/03/81

41-00084-02-02        More Emphasis Should Be Placed on
                      Energy Conservation in Region 2            02/03/81

4E-90028-02-02        Mismanagement of Repair and Alteration
                      Projects in Region 2 is Resulting in
                      Significant Excessive Costs                02/04/81

SD-900S3-02-02        Controls Over Payments for Merchandise
                      Delivered Directly to Customers Need
                      Improvement, Region 2                      02/04/81

SD-000669-08-08       Letter Report - Payroll Review,
                      Region 8                                   02/05/81

54-6004-113-F(2)      Second Followup - TRIPS                    02/06/81

3C-00209-04-04        Personal Property Documents Are Not
                      Properly Controlled by the Sales
                      Branch                                     02/10/81

3U-0022S-06-06-F(1)   Short Form Followup - Improved
                      Administrative Controls Neded at the
                      Des Moines, Iowa, Motor Pool               02/10/81

4G-OOS04-11-03        The Need to Improve Management Records
                      of Government-owned and Leased Space       02/10/81

2S-8012-F3            Third Fol1owup on GAO Report No.
                      PSAD-77-171, Government Specifications
                          Commercial Products   Necessary
                      or a Wasted Effort, November 3, 1977       02/12/81

                               A-IO
                                                                Date of
Number                                   Title                  Repor~

3U-00606-01-11        Letter Report - Central Office Actions
                      Caused $90,000 of Excessive Vehicle
                      Rental Payments in Region 1               02/13/81

4I-00357-04-04-F(1)   Fol1owup - Status of Project Funding,
                      FLETC, Glynco, Georgia                    02/17/81
4D-I0226-06-06        Letter Report - Better Separation of
                      Procurement Responsibilities Needed
                      at the Topeka Buldings Management
                      Field Office                             02/17/81

30-00370-11-11        Self-Service Store Operations at the
                      State Department Could be Improved       02/18/81

70-9178-09-09         Plans are Needed to Minimize Health
                      and Safety Hazards, Region 9             02/19/81

6J-00I00-00-21        Disposal of Surplus Real Property        02/19/81

3U-00606-11-05        Unjustified Leasing of Air-Conditioned
                      Vehicles                                 02/19/81
4G-00S04-08-08        Delayed Billing of $136,000 in User's
                      Charges, Public Buildings Service,
                      Region 8                                 02/20/81

32-9328-099           The Multiple Award Schedule Program
                      May Not Be the Most Cost Effective
                      Method to Purchase Home Entertainment
                      Equipment                                02/23/81
3G-0005l-0l-01-P      Letter Report - Minor Deficiencies
                      Noted in Advertised Procurement
                      Practices in Region 1                    02/26/81

SD-00460-09-09        Controls over Transactions Financed
                      from the Fede    Buildings Fund
                      Need to be Strengthened, Region 9        02/26/81
SW-00462-l1-1l        Improved Monitoring Techn ues
                      Are Needed for Grants Awarded
                      By the National Archives and
                      Records Service                          02/27/81




                               A 1J
                                                                 Date of
Number                                  Title                          t

5F-00284-08-22        Need to Improve Security and
                      Firesafety Procedures Related to
                      Computer Operations in Region 8           03/03/81

4D-00452-07-07(a)-F(1)  Short Form Followup - Need for
                     Detailed Contractual Work Specifi-
                     cations at the PBS Field Office,
                     Santa Fe, New Mexico                       03/03/81

4D-00452-07-07(b)-F(1}   Short Form Followup - Need for
                      Improved Procurement Controls at
                     the Muskogee PBS Field Office              03/03/81

4M-00085-04-04        Region 4 ADTS Contracting Officers
                      Need to Improve Contract Adminis-
                      tration and Also Need More Technical
                      Assistance in the Acquisition of
                      Compl ated Electronic Equipment           03/04/81

49-9408-077-F(1)      Short Form Followup - Incompetent
                      Contract Administration Warrants
                      Disciplinary Action                       03/05/81

74-8120-044(b)-F(1)   Followup - Recommendation Not
                      Implemented -           in the Adminis-
                      tration of The Lasker-Goldman
                      Construction Management Contract
                           the FLETC Project, Glynco,
                            ia                                  03/0       1

25-8030-F(3)          Short Form Followup Third Followup
                      on GAO Repor No LCD-77 22 ,
                      Additional Prec ou Metals Can Be
                      Recovered                                 03         1

34-9149-088-F(1)      Followup -              Needed in
                      Cont   tor          rv es nd
                      Inventory C      s at Denver Motor
                      Pool     ion 8                            03/10/81

63-9283-093-F (l)     Fol1owup -       r Sec uri and
                      Fires ety Practi s Can Be Improved
                      In    ion 9                               03/10/81

4M-90349-08-08        Potential Hisuse    Feder
                      Telecommunications    tern Telephone
                      Lines, Automated Data and Te
                      communications Service, Region 8          03/10/81




                               A-12
                                                                Date of
Number
   -------------                        Title                   Report
5N-00507-00-22        Letter Review of Status of Allotment
                      Accounts                                 03/10/81
4D-I0222-02-02        Letter Report - Small Procurement
                      in Buildings Management Field Office,
                      40 Foley Square, New York, New York,
                      is Generally Being Performed Properly    03/10/81
4D-l0227-07-07        Letter Report - Procurement Controls
                      Satisfactory at Laredo PBS Field
                      Office                                   03/10/81
30-10551-06-06        Observation of Self-Service Store
                      Physical Inventory Count, St. Louis
                      Store #49                                03/10/81

4D-00274-03-03-F(1)   Short Form Followup - Building Manager
                      Review - West Philadelphia Field
                      Office                                   03/11/81
31-00049-02-02        The Atlantic City Interagency Motor
                      Pool Should be Disestablished in
                      Order to Save $50,000 a Year             03/12/81
5D-00294-03-03        Letter Report - Administrative
                      Control   Travel                         03/12/81
3G-00542-03-03        Need to Improve the Procurement
                      of Small Purchases in Region 3           03/12/81
4G-00504-04-04        Region 4 1 s Vacant      Report
                      Does Not Identify Vacant        That
                      Is Unmarketab                            03/13/81
4G-00504-09-09        Contro   to Ensure Use of Available
                            Were Generally Effective,
                      Public Buildings Service,    ion 9       03/16/81
30-00216-03-03-F(1)   Short Form Followup    The Need for
                                ation of    ional and Store
                      Con       Over Self-Service Store
                          rations Richmond       in            03/17/81

4D-00274-0   0 (a)-F(l)  Short Form Fol       The Need for
                              tation          Procurement
                      Procedure and Adequate Con     ave
                             nt Inven       the West
                               F   d affi                      o   1   1




                               A-l3
                                                                     Date of
     Number                                  Title                  ~or~

     4D-004S2-03-03(a)-F(1) Short Form Followup - The Need for
                          Tighter Control Over ~rocurements at
                          the Parkersburg, West Virginia,
                          Field Office                              Q3/17/81

Vi   SD-00460-08-08        Improvement Needed in Accounting for
                           Construction Costs in the Federal
                           Buildings Fund, Region 8                 03/17/81

     SB-90046-09-09-F(1)   Followup - Procurement and Adminis-
                           tration of Vehicle Repairs Need
                           Improvement                              03/18/81

     3U-I0550-03-03        Fire and Safety Hazards Existed at
                           the Philadelphia Interagency Motor
                           Pool                                     03/18/81

     35-9419-055-F(1)      Short Form Followup - Self-Service
                           Store Operations, Jeffersonville,
                           Indiana                                  03/19/81

     3U-00648-06-06        Need to Emphasize Vehicle Maintenance
                           as Part of the Vehicle Fuel Conserva-
                           tion     ram in    ion 6                 03/1       1

     3U-00648-0   01       Letter             ion 1 is Satis-
                           factori   Accomplishing the Energy
                           Conservation Program for Vehicle
                           Fuel Economy                             03/20/81

     SF-OOS52-07-28        Computer Securi   and F res ety
                           Pract   s Need to be I      d in
                                  7                                 03/20/81

     30-00620-09-09        Internal Controls at the Central
                           Los       s Self-Serv    Store Can
                           Be                                       03     3   1

     4D-00687-09-09-1 1    Con rols Over Alteration Projects
                           at the             Id 0
                           I
                                         ie Bui           iee   g

                                                                    o    23/81

     77 9506 0 8 F(l)      Short Form Followup   Leasing and
                           Construction of the Helena, Montana,
                                 1   i1ding                         03/25      1
                                                                                     Date of
Number                                                 Ti tIe                        Report

4F-00078-04-04-F(1)         Followup - One Recommendation
                            Not Implemented, Procurement Review of
                            Miami, Florida, Buildings Management
                            Office                                               03/25/81

3U-00226-08-08-F(1)         Short Form Followup - Physical Controls
                            Over Parts and Credit Cards Need
                            Improvement at the Salt Lake City
                            Motor Pool                              03/25/81

5F-00350-00-22              GSA's Sensitive Computer Systems
                            Lack Adequate Recovery Plans                         03/25/81

4D-00687-11-11              Building Management Procurement
                            Actions at the Columbia Pike Field
                            Office Could be Improved                             03/25/81

3U-00521-11-11              Opportunities Exist for Improving
                            the Ef ctiveness of Operations at
                            the Interagency Motor Pool
                            Washington, DC                                       03/26/81

4G-00504-11-11              Significant Improvements are Needed
                            in Administering GSA Controlled
                            Space Nationwide                                     03/27/81

6G-I0303-00-21              Letter Report - Ineligible Recipient
                               $5,000 SES Bonus                                  03/27/81

73-9324-055-F(1)            Short Form          lowup - Cleveland
                            Field Office                                         03/30/81

    I     0050-05-05-F(1)   Short Form    lowup'- People Performing
                            C   ical and U   il    Laborers'
                                          ndianapolis Motor Pool
                                                                                 03/30/81

        -00504-01-01        Better Utiliz      of                   in the
                            Philip J Ph ilbin Fede                 uilding
                            Could    u    n Sav ng              to the
                            Government                                           03/30/81

4G-OO 0          05-05      More                                Accounting
                            for                    i                             03/30/81

3         4 1    99-F(2                                    West Los          s
                                                                                 0     31/81

          00 9      04              t                   of           4
                            Motor                       ision                    03/      81



                                        A 1'3
                                                               Date of
Number                                  Title                  Report
                                           ----------------
4D-00687-09-09-I-2   Alteration Project and Imprest Fund
                     Controls Should be Strengthened
                     at the Las Vegas Field Office
                     Buildings Management Division,
                     Public Buildings Service, Region 9       03/31/81

4D-10229-09-09       Alteration Project and Imprest Fund
                     Controls Should be Strengthened
                     at the Reno Field Office Buildings
                     Management Division, Public Buildings
                     Service, Region 9                        03/31/81




                              A-16
                       CONTRACT AUDITS


                                                             Date of
Number                               Title                   Report

IB-00653-08-08   Preaward Evaluation of Pricing
                 Proposal for Term Contract,
                 Seth W. Twichell and Associates, P.C.,
                 Project No. Z-CO-80-005                    10/02/80

2L-00332-04-04   Maintenance Escalation Costs,
                 Haney-Claxton Developers, Social
                 Security Administration Building,
                 Birmingham, Alabama, Lease Contract
                 No. GS-04B-14592                           10/07/80

ID-00494-04-04   Delay Claim, Fort Lauderdale Federal
                 Office Building and U.S. Courthouse,
                 Capital Electric Company, Contract
                 No. GS-04B-16555                           10/07/80

IB-00760-04-04   Preaward Evaluation of Rates,
                 Carlisle & Associates, Architect
                 Engineer, A/E Services, State of
                 South Carolina                             10/07/80

IB-00767-03-03   Preaward Evaluation of Supplemental
                 A/E Proposal, Berger Associates, Inc.      10/07/80

ID-00489-11-11   Claim for Increased Costs, Grunley-
                 Walsh Construction Company Inc.,
                 Contract No. GS-03B-78174                  10/08/80

ID-00725-03-05   Claim for Increased Costs, Six
                 Indus   es, Inc , Lease No.
                 GS-03B-70127                               10/08/80

IB-00433-05-05   Preawa   Evaluation           ed
                 Overhead Rate       McGuire & Shook
                                       No.
                                                            10/09/80

    0720-09-09                               luation
                                             for
                                             Ma ntenance
                                              PPB~80 00 1   10/09   0



                                                            10/0    0




                             A 17
                                                                Date of
Number                                  Title                   Report

lD-00420-04-04       Delay Claim, Phase XI-Electrical,
                     Strom Thurmond Federal Building and
                     u.s. Courthouse, Atlantic Electric
                     Company, Inc., Contract No.
                     GS-04B-16578                           10/10/80

lA-00485-11-0l       Preaward Evaluation of Pricing
                     Proposal for Architectural and
                     Engineering Services, Shepley,
                     Bulfinch, Richardson and Abbott,
                     Contract No. GSO-llB-09007             10/10/80

2A-00800-00-26-D     Evaluation of Pricing Proposal to
                     Definitize Letter Contract No.
                     GS-OOS-03378, National Academy
                     of Public Administration               10/14/80

lA-00200-ll-11       Pre award Evaluation of A/E
                     Pricing Propos     Lee-Thorp
                     Consulting Eng neers, Contract
                     No. GS-03B-88l37/89052                 10/15/80

2 R-O 075   00- 09   Preaward Eva         of a     ing
                     Propos 1,       I' Incorporated g
                     Soli itation No
                     GSC-CDPCE-K-00006-N-4-8-80             10/1      o
2A-00756-00-26-D                                 cing
                                                Devices
                                                 No.
                                                            1         0

2A-00801-00-2           award Evaluat on of
                            1       hing Ent
                              t   No. FCGA-                 10

1    0805 0    04


                                                            10/1     8C

                                                , The
                                                 Co. ,
                                                            lO/16/8C

lD-004 0-07-09       Claim f   Inc as      t,    Haas and
                        ni       ration, Contract No.
                     GS-O B-C-7003-SF                       10     O/8{




                                 A-JR
                                                              Date of
Number                                Title                   Report

2J-00594-09-09-D   Price Proposal for Janitorial Services
                   and Ground Maintenance, Castle Instant
                   Maintenance, Inc., Request for Proposal
                   No. PBS-9PPB-80-0053(N)                   10/20/80

lL-00659-09-09     Lease Escalation Proposal, Murdock
                   Management Company, Contract No.
                   GS-09B-75762                              10/20/80

2B-00700-00-05     Preaward Evaluation of Pricing
                   Proposal, Showcase Corporation,
                   Proposal FCGE-I-75141-N-2-26-80           10/20/80

2J-00728-11-11     Preaward Evaluation of Pricing
                   Proposal, Larry's Service Company,
                   Inc., Contract No. GS-IIC-00125           10/20/80

2R-00750-00-26-D   Preaward Evaluation of Pricing
                   Proposal, Dataproducts New England,
                   Incorporated, Solicitation
                   GSC-CDPCE-C-K-00007-N-4-29-80             10/20/80

IT-00506-02-02     Termination Claim, Rosakranse
                   Masonry, Inc., Contract No.
                   GS-02B-75821(NEG)                         10/21/80

lA-00708-07-07     Pre award Evaluation of A/E Pricing
                   Proposal, Garland and Hilles,
                   Architects, Project No. NTX 80001         10/21/80

lK-00726-07-07     Preaward Evaluation of Pricing
                   Proposal, John W. Jennings, Jr.,
                   Lessor, Lease No. GS-07B-7655             10/21/80

2W-00583-04-04     House of Typewriters, T&M Contractor,
                   Contract No. GS-4DPR-90262                10/22/80

2W-00587-05-05     Preaward Evaluation of Pricing
                   Propos  , Comsi, Inc., Extension of
                   Contract No GS-05S-1l127                  10/23/80

lB-00747-11-       Evaluation of Price
                           & Associates, C
                   Contract No. GS-llB-09009                 10/27/80

2B-00581-00-03     Preaward Evaluation of Pricing
                         al DSG, Inc    Solicitation
                   No FCGE-D-75140-N-02-1    0               10/28   0




                               A-19
                                                               Date of
Number                                Title                    Report
lB-00806-04-04     Preaward Evaluation of Supplemental
                   A/E Proposal, Connell, Metcalf and
                   Eddy, Supplemental A/E Services,
                   State of Florida                           10/28/80

lA-00733-ll-11     Preaward Evaluation of A/E Pricing
                   Proposal, Hayes, Seay, Mattern and
                   Mattern, Contract No. GS-03B-88611/
                   99011                                      10/29/80

2Q-00804-00-26-D   Evaluation of Price Proposal,
                   OAO Corporation, Solicitation No.
                   CDPXW-79-00l2-M-W7                         10/29/80

2C-00246-00-l0     Letter Report - Price Reduction
                   Audit of John Fluke Manufacturing
                   Company, Incorporated                      10/30/80

2B-00590-00-05     Pre award Evaluation of Price Proposal,
                   A. B. Dick Company, Solicitation No.
                   FGCE-I-75l41-N-2-26-80                     10/30/80

2B-00600-00-l0     Letter Report - Preaward Evaluation
                   of Tektronix, Inc., Pricing Proposal       10/30/80

2W-00764-06-06     Time and Material Contracts, Office
                   Equipment, Inc I Shawnee Mission,
                   Kansas                                     10/30/80

2B-00771-00-09     Preaward Evaluation of a Pricing
                         aI, Metrology Gene    Corporation,
                   Solicitation No. FCGS-F-36367-N-12-23-79   10/30/80

2G-00063-00-05     Audit Relative to Price    uctions
                   and Defective Pricing A. B. Dick
                   Company, Contract     OS-45001             10/3   o
2B-00405-00-ll     Preaward Eva        of Pricing
                         al Federal Sa s Serv     , Inc.,
                   Contract No. FCGE-M6 7S147-N-5-8-80        10/31/80
2B-00579-00-02     Pre      Evaluation of Price Proposal,
                   Eastman Kodak Co., Solicitation
                   No FCGE-B-9-75152                          10/31/80

  -00777-11-11     Preaward Evaluation of Pricing
                         aI, Diplomatic Painting and
                   Building Services Company, Inc,
                   Contract No. GS 11C-00271                  10/31/80



                               A-2n
                                                                   Date of
Number                                     Title                   Report
                        ------------------------------
lL-10310-09-09         Letter Report - Escalation Proposal,
                       Lease No. GS-09B-73773, Blocks Band C,
                       Two Embarcadero Center, San Francisco      10/31/80

lA-10335-09-09         Preaward Evaluation of A/E Pricing
                       Proposal, Archer-Spencer Engineering
                       Associates, Inc., Mechanical/Electrical
                       Consultant to Neptune & Thomas
                       Associates, Contract No. GS-09B-713S2      10/31/80

2B-I0055-00-01         Letter Report - Preaward Evaluation of
                       Price Proposal, FSS Schedule 66-II-M,
                       Fisher Scientific Company, Jarrell-Ash,
                       FCGS-G-36381-N-9-24-8                      11/06/80

lL-00803-07-07         Pre award Evaluation of Lease Escalation
                       Proposal, Lease Number GS-07B-I0284        11/12/80

2K-00755-11-03         Custodial Services Contract, Ken-Rich
                       Services, Inc., Forrestal Building,
                       Contract No. 03C-80910-10, Contract
                       No. 03C-90S11 (NEG. 2)                     11/13/80

IS-00650-07-07         Preaward Evaluation of Pricing Proposal,
                       Ford Universal Carpet Company,
                       Contract No. GS-RTX-80SS1                  11/14/80

IS-00818-05-05-D       Preaward Evaluation of Price Proposal,
                       The Emanuel Company, Proposal No.
                       GS-OSBC-S1890                              11/14/80
    10169-05-05        Preaward Evaluation of Proposed
                       Overhead Rate, George A. Kennedy &
                       Associates, Inc.                           11/14/80

2      0548-00-11      Termination Settlement Proposal,
                       J. B. Kendall Company, Contract No.
                       GS-00S-8S0                                 11/17/80

2   9434-118           Costs               a Watch
                                            r Jewel Bearing
                       Plant Contract No. GS~OO DS-(P)-03003,
                       for the Pe    June 1 1977 through
                           31   1980                              11/18/80

ID~O   00 12-0 S-'05   Audit of
                       Samson Industr
                          a 1 8 4                                 11/18/80
                                                                 Date of
Number                                Title                      Report

2B-00393-00-02     Preaward Evaluation of Pricing
                   Proposal, Savin Corporation,
                   Solicitation No. FCGE-M6-75147-N-5-8-80   11/18/80

2B-I0065-00-02     Preaward Evaluation of Pricing
                   Proposal, Ethicon, Inc., Solicitation
                   No. FCGS-T-36380-N-9-22-80                11/18/80

2V-I0319-07-07     Letter Report - Pre award Accounting
                   System Survey, E-Z Business Machines,
                   Inc., Solicitation No. GSD-7DPR-IOOOI     11/18/80

2B-I0057-00-01     Letter Report - Preaward Evaluation
                   of Price Proposal-FSS Schedule 66-II-M,
                   Perkin-Elmer Corporation (Solicitation
                   FCGS-G-36381-N-9-24-80)                   11/19/80

IT-90139-04-04     Equitable Adjustment Claim, Miami
                   Courthouse Annex, Frank J. Rooney,
                   Inc./R. J. Ross Associates, Inc.,
                   Joint Venture, Construction Manager,
                   Contract No. GS-04B-16346                 11/20/80

2S-00342-00-01     Price Reduction/Defective Pricing,
                   Wang Laboratories, Inc., Contract
                   No. GS-OOC-01541                          11/20/80

ID-00639-04-04     Delay Claim of Electrical Constructors
                   of America, Inc., Federal Law Enforce-
                   ment Training Center, Building 262,
                   Glynco, Georgia, Contract No.
                   GS-04B-17004(M)                           11/20/80

lL-00707-03-03     Lease Escalation Proposal,
                   707 Associates, Lease No. GS-03B-80064    11/20/80

IM-00735-03-11     Interim Audit of Construction Manage-
                   ment Contract, Gilbane Building
                   Company and Parametric, Inc.! Joint
                   Venture, Contract No. GS-00B-01888        1     20/80

2J-I0073-04-04     Price Proposal        aning Services,
                   Ballistic Missile Center and The U.S.
                   Post Office - Courthouse, Huntsvil
                   Alabama, D & D Serv   Sf Inc.             11/20/80

lA-10332-11-01-R   Letter Report - Preaward Evaluation
                   of Sasaki Associates                      11/20/80

ID-I0307-04-04     Claim for Increased Costs, Jacobson
                   and Company, Inc., Contract No.
                   GS-04B-16784                              11/20/80

                               A-22
                                                                   Date of
Number                                    Title                    Report
IP-I0336-11-05    Preaward Evaluation for Pricing
                  Proposal, Jervis B. Webb Company,
                  Solicitation No. RFP-I1C-00337(n)            11/20/80
lL-00401-06-06    Lease Escalation Proposal, Gilroy-Sims
                  and Associates, Ltd., St. Louis,
                  Missouri, Lease No. GS-06B-I0967             11/21/80
lL-10341-09-09    Letter Report - Escalation Proposal -
                  Lease GS-09B-6390, One Embarcadero
                  Center, San Francisco                        11/24/80

2W-00254-10-10    Postaward Review of Time and Material
                  Contracts, Speed's Automotive, Inc.,
                  Contract Nos. GS-IOW-85686 &
                  GS-10DPR-95504                               11/25/80
2J-I0349-04-04    Price Proposal for Cleaning Service,
                  Castle & Pulaski Building, Savannah,
                  Georgia, Superb Maintenance, Inc.            11/25/80
2H-00075-00-05    Defective Pr ing and Price
                  Reductions, Control Data Corp.,
                  Contracts No GS-OOC-01198 & 01451            11/26/80
lL-00737-02-03    Claim for Overtime Services, Lease
                  No. GS-02B-18698, 26 S. Pennsylvania
                  Ave., At       City, New Jersey              11/26/80

2B-I0082-00-05    Pre award Evaluation of Pr e Proposal,
                  Gould, Inc., Instrument Division,
                  Solicitation No FCGS-L-3638 N-9-18-80        11/26/80
    10191-11-08   Preaward Evaluation of Pricing Proposal
                      Term Contract Lerch, Bates, and
                  Assoc ates                                   11/26/80
1S-10305-04-04    Pre award Evaluation of 8(a) Pricing
                          1 Four States Construction
                              Contract No      4B-79003        11/26/80
    006   00-08   Letter          Pr   Reduct            and
                            Pricing Informat
                                ces Contract No
                                                               12/03/80

2   024   00-0                            Pri    Reductions
                                      i   ing   Da       i
                                  No.
                                                               1        o


                              A   3
                                                              Date of
Number               . - - - - - - -Title
                                    .                         Report

lS-10185-08-08     Pre award Evaluation of Pricing
                   Proposal, Artistic Plumbing, Inc.,
                   Project No. R-CO-78-ll7                   12/03/80

2J-10086-06-06     Preaward Evaluation of Pricing
                   Proposal, Glow Janitorial Service,
                   St. Louis, Missouri                       12/03/80
2J-00596-09-09-I-l-D Price Proposal for Unarmed Guard
                   Service, Inter-Con Security Systems,
                   Inc., Request for Proposal No.
                   PBS-9pPB-80-0058                          12/04/80

2J-00596-09-09-1-2-D Price Proposal for Armed Guard
                   Service, Inter-Con Security Systems,.
                   Inc., Request for Proposal No.
                   PBS-9PPB-80-0087                          12/04/S0

2B-1008l-00-05     Pre award Evaluation of Price Proposal,
                   Travenol Laboratories, Inc., Solicita-
                   tion No. FCGS-T-36380-N-9-22-80           l2/04/S0

2J-10099-09-09-I-l-D Price Proposal for Custodial
                   Services, Aerial Service Company,
                   Request for Proposal No.
                   PBS-9PPB-SO-0076                          12/04/80

2J-I0099-09-09-1-2-D Price Proposal for Janitorial
                   Services, Aerial Service Company,
                   Request for Proposal No.
                   PBS-9PPB-SO-0074                          12/04/80

2J-I0353-07-07     Preaward Evaluation of Pri ng
                   Proposal, John Baker Janitorial
                   Service, Inc., Contract No.
                   GS-07B-20919                              12/04/80

2C-l0060-00-02     Letter Report - Price Reduction and
                   Defective Pricing,        ron Corp,
                   Contract No. GS-OOC-Ol9S2                 12/09/80
lS-10304-04-04     Pre award Evaluation of Pricing
                   Proposal S(a), F E. Davis Company,
                   Inc., Space Alterations, Federal
                   Office Building, Greensboro,
                   North Carolina                            12/10/80
lL-00803-07-07-F   Letter - Supplemental Report,
                   Pre award Evaluation of Lease
                   Escalation Proposal, Lease No.
                   GS-07B-I0284                              12/11/80


                                A-24
                                                                 Date of
Number                                 Title                     Report

lB-00652-08-08     Preaward Evaluation of Pricing
                   Proposal for Term Contract,
                   Donald H. Panushka and Associates,
                   Inc., Project No. Z-CO-80-004             12/15/80

lD-0.0664-0 0-11   Claim for Increased Costs, Warwick
                   Construction, Inc., Contract No.
                   GS-02B-17l85                              12/16/80

lL-10180-06-06     Lease Escalation Proposal, H&H Rolla,
                   St. Louis, Missouri, Lease No.
                   GS-06B-13405                              12/16/80

lL-l03l3-06-06     Lease Escalation Proposal, H&H South,
                   St. Louis, Missouri, Lease No.
                   GS-06B-14243                              12/17/80

14-8172-055        Claim for Increased Costs, Utley-James,
                   Inc., Contract No. GS-05BCA-0296          12/18/80

IF-00189-04-04     Delay Claim, Energy Distribution,
                   Federal Law Enforcement Training
                   Center, Ivey's, Inc., Contract No.
                   GS-04B-17027(M)                           12/18/80

lO-10330-ll-ll-D   Evaluation of Contract Pricing
                   Proposal, TDC Management Corp.            12/18/80

2J-00779-ll-ll     Preaward Evaluation of Pricing
                   Proposal, J&L Contract Services,
                   Inc., Contract No. GS-llC-00297           12/22/80

2B-l0063-00-02     Preaward Evaluation of Pricing
                   Proposal, Becton-Dickson, Solicitation
                   No. FCGS-T-36380-N-9-22-80                12/23/80

2J-l0087-06-06     Preaward Evaluation of Pricing
                   Proposal, Ridley Southside Janitorial
                   Serv ice I. Inc., Kansas City, Missouri   12/29/80

lC-l0368-06-06     Letter Report - Claim Submitted by
                   Hoel-Stef    Construction Company,
                   Contract G8-06B-81101                     12/29/80

2G-00060-00-02     Price Reductions and     ctive
                   pricing Eastman Kodak Company,
                   Contra   No.     08-44751, for the
                   period     uary 1, 1979, through
                           31, 1980                          1     30/80
                                                               Date of
Number                                  Ti tIe                 Report

2C-00497-00-02      Price Reduction and Defective Pricing
                    Review, Ethicon, Inc., Contract No.
                    GS-00S-49475                              12/30/80

2B-00580-00-02      Preaward Evaluation of Pricing
                    Proposal, Dictaphone Corporation,
                    Solicitation No. FCGE-D-75140-N           12/30/80

2W-I0317-08-08(a)   Accounting System Survey, Midwest
                    Service and Supply Company,
                    Solicitation No. GSD-8DPR-00007           12/30/80

lC-00152-04-04      Change Order Proposal No. 123,
                    Frank Briscoe Company, Inc.,
                    Contract No. GS-04B-16375, Richard B.
                    Russell Federal Office Building and
                    Courthouse, Atlanta, Georgia              12/31/80

IV-00738-02-02      Value Engineering Change Proposal,
                    Eugene Iovine, Inc., Subcontractor
                    to Tide Electrical Construction Corp.
                    Under Contract No. GS-02B-17190           12/31/80
2B-IOIOO-00-09      Pre award Evaluation of a Price
                    Proposal, Finnigan Corporation,
                    Solicitation No. FCGS-G-36381-N-9-24-80   12/31/80

lL-10181-06-06      Lease Escalation Proposal, Blue Cross
                    Building, St. Louis, Missouri             12/31/80
IT-I0192-09-09      Termination Settlement Proposal,
                    Vanir Research Company, Lease No.
                    GS-09B-78582                              12/31/80
ID-I0315-00-09      Claim for Increased Costs, Peck &
                    Hiller Co., Subcontractor to
                    William F. Klingensmith, Inc.,
                    Contract No. GS-03B-78037                 12/31/80
ID-I0323-11-11      Claim for Increased Costs,
                    William F. Klingensmith, Inc.,
                    Contract No. GS-03B-78037                 12/31/80
ID-I0324-11-11      Claim for Increased Costs,
                    William F. Klingensmith, Inc.,
                    Contract No. GS-03B-78037                 12/31/80
lD-I0365-11-11      Claim for Increased Costs,
                    William F. Klingensmith, Inc.,
                    Contract No. GS-03B-78037
                    Docket No. 5506                           12/31/80


                                A-2F.
                                                             Date of
Number                               'l'i tIe                Report

lC-0042l-04-04(a)   Change Order No. 10, Strom Thurmond
                    Federal Building and u.s. Courthouse,
                    Dawson Construction Company,
                    Contract No. GS-04B-l6750               01/05/81
lC-0042l-04-04(b)   Delay Claim Strom Thurmond, Federal
                    Building and u.s. Courthouse,
                    Columbia, South Carolina,
                    Dawson Construction Company,
                    Contract No. GS-04B-16750               01/05/81
lC-00421-04-04(c)   Change Order No. 15, Strom Thurmond
                    Federal Building and u.S. Courthouse,
                    Dawson Construction Company,
                    Contract No. GS-04B-16750               01/05/81

lD-I0147-04-04      Delay Claim, Strom Thurmond Federal
                    Building and U S. Courthouse,
                    Dawson Construction Company,
                    Contract No GS-04B-165 7                01/05/81




                               A
                                                               Date of
Number                                Title                    Report

2J-00810-11-11      Preaward Evaluation of Pricing
                    Proposal, Cassidy Cleaning, Inc.,
                    Contract No. GS-IIC-00287                 01/09/81

IT-00814-11-11      Termination Settlement Proposal,
                    Suburban Lawn & Landscape Service,
                    Inc., Contract No. GS-IIC-00074           01/09/81

lA-10152-04-04      Claim for Additional Services,
                    Davis & Floyd, Inc., (Joint Venture)
                    A/E Contract No. GS-04B-16289(N),
                    Strom Thurmond Federal Building and
                    u.S. Courthouse                           01/09/81

lL-10149-04-04      1979 Lease Escalation Costs 1365,
                    1371, and 1375 Peachtree Street
                    Atlanta, Georgia, Lease Numbers
                    GS-04B-11484, lS971, and lS262            01/10/81

2W-I0317-08-08(b)   Time and Materials Contract
                    Billings, Midwest Service & Supply
                    Company, Contract Nos. GS-08W-00648
                    and GS-8DPR-0076                          01/12/81

2B-00647-00-07      Preaward Evaluation of Pricing
                    Proposal, Owens-Illinois, Inc.,
                    Solicitation No. FCGS-N-3682-N-
                    10-21-80                                  01/14/81

2B-I0339-00-07      Preaward Evaluation of Pricing
                    Proposal, Corning Glass Works, Inc.,
                    Solicitation No. FCGS-N-36382-N-
                    10-21-80                                  01/14/81

2B-I0092-00-07      Preaward Evaluation of Pricing
                    Proposal, Searle Medical Products,
                    Inc., Solicitation No. FCGS-T-36380-
                    N-9-22-80                                 01/lS/81

2B-10102-00-09      Preaward Evaluation of a Price
                    Proposal, Beckman Instruments, Inc.,
                    Solicitation No. FCGS-B-36379-N-9-2S-80   01/15/81

lL-10312-06-06      Lease Escalation Proposal, A. D. Brown
                    Building, St. Louis, Missouri             01/16/81

2B-I0075-00-04      Pre award Evaluation of Pricing Pro-
                    posal, EG&G ORTEC, Inc., Solicitation
                    No. FCGS-G-36381-N-9-24-80                01/19/80




                               A-28
                                                               Date of
Number                                Title                         t

1M-10333-10-09     Pricing Proposal for Construction
                   Management Services, Turner
                   Construction Company, Contract
                   No. GS-IOB-E-02265-00                      01/20/81

2J-10355-02-02-D   Pre award Evaluation of Pricing Proposal
                   for Janitorial Services, See Clear
                   Maintenance Corp., Bronx, New York         01/20/81

1D-I0321-11-11     Claim for Increased Costs, William F.
                   Klingensmith, Inc., Contract No.
                   GS03B-78037                                01/12/81

ID-10370-10-10     Claim for Increased Costs, Mid-Pac
                   Electric, Subcontractor to Haas and
                   Haynie, No. GS-09B-C-7003SF                 01/23/81

lS-00762-01-01     Pre award Evaluation of Painting
                   Proposals, B & T ~ontractors, Inc.,
                   Contract Nos. GS-OIB-02140,
                   GS-OIB-01975                               01/23/81

2B-10058-00-01     Preaward Evaluation of Price Proposal,
                   Instrumentation Lab, Inc., Lexington,
                   Massachusetts                              01/23/81

2B-I0095-00-08     Pre award Evaluation of Pricing
                   Proposal, Honeywell Inc., Test
                   Instruments Division, Solicitation
                   No. FCGS-L-36357-N-9-18-80                 01/23/81

2A-10301-00-09     Pre award Evaluation of Pricing
                   Proposal, California Power Systems,
                   Incorporated, Solicitations:
                   FTP-BS-F0029-N and FTP-CW-F0048-3N         01/23/81

28-10334-00-10     Preaward Evaluation of Price Proposal
                   for Dental Equipment and Supplies,
                   FSS Schedule 65-II-C, A-dec, Inc.          01/23/81

ID-I0193-07-09     Claim by Haas and Haynie Corporation
                   for Increased Costs, Oahu Plumbing &
                   Sheet Metal, Ltd., Subcontractor to
                   Haas and Hayn   Corporation Under
                   Contract No. GS-09B-C-700 SF               01/26/81

1   10352-11-11    Preaward Evaluation    Pr ing
                   Proposal, Daute Contractors, Inc
                   Contract No GS-038-98239                   01/26/81




                               A-29
                                                                Date of
Number                                Title                     Report

ID-00418-04-04     Claim for Increased Costs, Algernon
                   Blair, Inc., Contract No. GS-04B-16510      01/27/81

lL-10522-09-09     Lease Escalation Proposal, Charles
                   Sutherland and Ray Magnon, Lessors,
                   Contract No. GS-09B-73622                   01/27/81
2R-I0342-00-26-D   Preaward Evaluation of Pricing Pro-
                   posal, Hazeltine Corporation,
                   Solicitation GSC-CDPS-C-00017-N-7-10-80     01/27/81
ID-I0533-04-03     Letter Report - Claim for Increased
                   Costs Due to Government Caused Delays,
                   AC&S, Inc.                                  01/28/81

IJ-I0351-03-03     Lessor's Claim for Lost Rentals and
                   Physical Damage, Jonnet Development
                   Corporation, Lease No. GS-03B-70203         01/28/81
lS-10176-06-06     Pre award Evaluation of Pricing Proposal
                   Aaron Orr Plumbing and Sewer Service,
                   Inc., St. Louis, Missouri, Contract No.
                   GS-06B-03820                                01/28/81
2J-I0072-04-04     Pre award Evaluation of Pricing Proposal,
                   Hyde Security Services, Inc.                01/28/81
lL-10521-09-09     Letter Report - Lease Escalation Pro-
                   posal, Timberwine, Inc., Lease No.
                   GS-09B-75424                                01/29/81
IM-00144-11-11-D   Evaluation of Price Proposal Gilbane
                   Building Co., Paul R. Jackson Con-
                   struction Co., Joint Venture Solicita-
                   tion No. PAIPC006                           01/29/81

2Z-00701-03-11     Termination Settlement Proposal,
                   Commercial Transfer Systems, Inc.,
                   Contract No. GSA-3FT-l04                    01/29/81
lS-10455-11-11     Letter Report - Preaward Evaluation of
                   8(a) Pricing Proposal, Quality Plus
                   Construction Company, Inc., Contract
                   No. GS-03B-98282                            01/30/81

2J-00778-11-11     Preaward Evaluation of Pricing Pro-
                   posal, Unified Services, Inc.,
                   Contract No. GS-IIC-00274                   01/30/81




                               A 30
                                                            Date of
Number                               Title                  Report

ID-I0322-11-11     Claim for Increased Costs, William F.
                   Klingensmith, Inc., Contract No.
                   GS-03B-78037                            02/04/81

ID-00449-03-11     Claim for Increased Costs,
                   Whiting-Turner Contracting Company,
                   Inc., Contract No. GS-03B-78041         02/04/81

2J-I0537-01-01     Evaluation of Pricing Proposal,
                   Crystal Industrial Maintenance, Co.,
                   Inc.                                    02/04/81

lA-00636-02-02     Preaward Evaluation of pricing
                   Proposal for Architect/Engineering
                   Services, Marcel Breuer Associates,
                   James stewart Polshek and Associates,
                   Goldman-Sokolow-Copeland, Stewart
                   Daniel Hoban and Associates, A Joint
                   Venture                                 02/06/81

lC-00770-09-09     Preaward Evaluation of Two Price-To-
                   Be-Determined-Later Change Order
                   Proposals, Eberhard Roofing Corp.,
                   Contract No. GS-09B-C-20407-SF          02/06/81

ID-I0367-11-1l     Claim for Increased Costs, Heller
                   Electric Company, Inc., Contract
                   No. GS-03B-78037                        02/06/81

2J-I0488-06-06     Preaward Evaluation of Pricing Pro-
                   posal, Sylvester James and Sons
                   Maintenance Service, Inc., Kansas
                   City, Kansas                            02/09/81

lB-I033l-l1-llD    Evaluation of Price Proposal;
                   McGaughy, Marshall and McMillan;
                   Contract No. GS-I1B-09018               02/11/81

lS-00650-07-07-F   Letter Report - Preaward Evaluation
                   of Pricing Proposal, Ford Universal
                   Carpet Co., Contract No. GS-RTX-80551   02/12/81
2C-00554-00-10     Relative to Price Reductions, Physio
                   Control Corporation Contract No.
                   GS-00S-62184                            02/13/81

2B-00592-00-07     Preaward Evaluation     Pri ing
                         aI, Arne can Scientific
                   Products, Solicitat     No
                   FCGS-N-36382    0 21 80                 02/13   I



                              A 31
                                                              Date of
Number                             Title                      Report

2D-00704-00-09   Evaluation of a Termination Settle-
                 ment Proposal, American Kal Enter-
                 prise, Inc., Contract No. GS-00S-16097      02/13/81
2J-lOl03-l0-l0   Preaward Evaluation of Pricing
                 Proposal, Special Building Maintenance
                 Company, Contract No. GS-lOB-50623-0l       02/13/81

2B-10076-00-04   Pre award Evaluation of Pricing Proposal,
                 Edward Weck & Company, Inc.,
                 Solicitation No. FCGS-T-36380-N-9-22-80     02/17/81

2B-10056-00-0l   Preaward Evaluation of Price Proposal,
                 Genrad Corp., Inc., Waltham, MA             02/18/81

lB-l0372-ll-11   Preaward Evaluation of A-E pricing
                 Proposal, Kidde Consultants, Inc.           02/18/81

lK-l0425-0l-0l   Preaward Evaluation of Pricing Proposal,
                 Government Center Developers Company,
                 Boston, Massachusetts                       02/18/81
2B-10070-00-03   Pre award Evaluation of Pricing Proposal,
                 Dentsply International Inc., Solicitation
                 No. FCGS-M-90l97-N-lO-17-80               02/19/81

lA-00662-ll-11   Preaward Evaluation of A-E Pricing
                 Proposal, Davis, Smith, Carter & Rider,
                 Inc., Contract No. GS-03B-89053             02/20/81

lD-00802-l0-l0   Equitable Adjustment Claim, Associated
                 Engineers and Contractors, Inc.,
                 Contract No. GS-lOB-02l98-00                02/20/81
28-10083-00-02   Preaward Evaluation of Pricing Proposal,
                 Sybron/Ritter, Dental Products Division     02/20/81

28-10089-00-06   Preaward Evaluation of Price Proposal,
                 Den-Tal-Ez Manufacturing Company,
                 Des Moines, Iowa                            02/20/81

2B-l0302-00-02   Preaward Evaluation of Pr ing Pro-
                 posal, SCM Corporation, Solicitation
                 No. FCGE-D-75l40                            02/20/81

lA-10448-07-07   Preaward Evaluation of A/E Pricing
                 Proposal, Rapp Fash Sundin, Inc.,
                 Project No. ITX 82004                       02/20/81




                             A-3
                                                               Date of
Number                                Title                         t
         -----
2J-I0481-04-04     Preaward Evaluation of Pricing Pro-
                   posal, Mr. Clean Janitor and
                   Maintenance Service, Inc., IRS Center,
                   Covington, Kentucky, Contract No.
                   GS-04B-8l647                               02/20/81

IV-I0358-03-03     Evaluation of Pricing Proposal of
                   Supplement~l Agreement, I. Alper,
                   Company, Contract No. GS-03B-98053,
                   Modification No. 1                         02/23/81

2S-10059-09-02     Letter Report - Price Reduction and
                   Defective Pricing, u.s. JVC Corp.,
                   Contract No. GS-09S-39236                  02/25/81

lL-10452-09-09     Letter Report - Lease Escalation
                   Proposal - Collins/ National, Lease
                   No. GS-09B-748l7                           02/25/81
2B-I0079-00-05     Preaward Evaluation of Price Proposal,
                   Packard Instrument Company, Inc.,
                   Solicitation No. FCGS-G-3638l-N-9-24-80    02/26/81

lA-10360-11-11-D   Firm Fixed Price Proposal; Metcalp/KCF,
                   Joint Venture; Contract No. GS-03B-88963   02/26/81

ID-I0190-00-08     Claims for Increased Costs, Casson
                   Construction Company, Inc., Contract No.
                   GS-06B-13623                               02/27/81

lK-10366-1l-ll     Preaward Evaluation of Lease
                   Alteration Pricing Proposal, Total
                   Management, Inc.                           02/27/81
lB-10435-05-05     Preaward Evaluation of Proposed Over-
                   head Rate, The Durrant Group, Inc.,
                   Proposal No. GS-05BC-90447                 02/27/81

2B-10542-07-07     Letter Report ->~reaward Evaluation of
                   Price Proposal, Skyland Equipment
                   Company, Inc., Solicitation No.
                   7CF~5l948/H4/7FC                           02/27/81

2B-lOl05-00-10     Preaward Evaluation of the Solicita-
                   tion and Offer for Measuring and
                   Testing Instruments, Tektronix,
                   Inc , Beaverton, Oregon                    03/03/81

10-10306-00-03     Contract Change Order Proposal,
                   Hill International, Inc , Contract
                   No GS-OO-B-222S                            03/03/81



                              A 33
                                                              Date of
Number                                 Title                  Report
   ----------------
lS-10534-04-04        Preaward Evaluation of Pricing
                      Proposal, J. W. Dowell Construction
                      Co., Inc., Contract No. RGA 77045      03/04/81

2J-10345-11-11        Preaward Evaluation of Pricing
                      Proposal, Sparkle Trucking Co.,
                      Contract No. GS-IIC-00450              03/05/81

2A-10525-00-26-D      Preaward Evaluation of Price
                      Proposal, Electric Vehicle
                      Associates, Inc., Solicitation No.
                      FCTL-P3-A7790-N-12-29-S0               03/05/81

2R-10532-00-26-D      Preaward Evaluation of Pricing
                      Proposal, Denro Laboratories, Inc.,
                      Solicitation No.
                      GSC-CDPS-C-K-0000I-N-I0-19-79          03/05/81

lS-10424-01-01        Preaward Evaluation of Pricing
                      Proposal, American District
                      Telephone Co., Solicitation No.
                      IPPB MA-80-14                          03/06/81

2J-1057S-11-11        Letter Report - Preaward Evaluation
                      of Pricing Proposal, Apollo Eleven
                      Building Maintenance Co., Inc.,
                      Contract No. GS-IIC-I0062              03/06/81

2S-00232-00-11        Reviews of Equipment Obtained by
                      Seventeen Agencies Under IBM
                      Contract GS-00C-01S22 Failed to
                      Substantiate Alleged Overbillings      03/10/S1

lC-00S12-11-11        Preaward Evaluation of Change Order
                      Proposal, Grunley-Walsh Construction
                      Co., Inc./W. G. Cornell Co. of
                      Washington, Inc., A Joint Venture,
                      Contract No. GS-03B-7S077              03/10/S1

lC-00813-11-11        Preaward Evaluation of Change Order
                      Proposal, Grunley-Walsh Construction
                      Co., Inc./W. G. Cornell Co. of
                      Washington, Inc., A Joint Venture,
                      Contract No. GS-03B-7S077              03/10/81

1C-I0375-11-11        Preaward Evaluation of Change Order
                      Proposal, Grunley-Walsh Construction
                      Co., Inc./W. G. Cornell Co. of
                      Washington, Inc I A Joint Venture,
                      Contract No. GS-03B-78077              03/10/81



                                A-34
                                                              Date of
Number                                Title                   Report

2G-10545-00-07      Letter Report - Price Reduction/
                    Defective Pricing, Austron, Inc.         03/10/81

1D-10153-04-04      Delay Claim, Building Closure and
                    Concrete Slabs, Training Building 262,
                    FLETC, ACS Construction Co., Inc.,
                    Contract No. GS-04B-17002(M)             03/11/81
2A-10485-00-05      Preaward Evaluation of Proposed Unit
                    Prices, Diebold, Inc., Solicitation
                    No. FNMC-C2-0016-N-11-18-80              03/11/81
1J-10350-05-05      Claim for Increased Costs, Don H.
                    Barden and Company, Lease No.
                    GS-05B-12503                             03/12/81
2W-10477-02-02      Letter Report - Melton Sales and
                    Service, Inc., Contract Nos.
                    GS-02W-00229, GS-02W-00479,
                    and GS-02W-00692                         03/12/81
2D-10495-08-08      Settlement Proposal for Contract
                    Termination, Devoe & Rayno1ds
                    Company, Inc., Contract No.
                    GS-08S-33643                             03/12/81
2J-10559-04-04      Preaward Price Proposal for Cleaning
                    Service, Ft. Lauderdale, Florida, FOB,
                    A&B Maintenance, Inc., Contract No.
                    GS-04B-50339                             03/12/81

1M-00205-11-11      Interim Audit of Construction
                    Management Contract, Parametric, Inc.,
                    Contract No. GS-03B-69008 (NEG)          03/13/81
2J-I0526-03-03      Initial Price Proposal, Mann, Hundley
                    and Hendricks, Solicitation No.
                    GS-03C-B-064-34                          03/17/81

2K-0055S-11-11(a)   Cost Plus Award Fee Contracts,
                    Nationwide Building Maintenance,
                    Inc., Contract Nos. 03C5073601,
                    03C6105401(NEG)-2, and
                    03C6139701(NEG)-3                        03/18/81

lA-00708-07-07-F    Amended     rt - Preaward Evaluation
                    of A/E Pricing Proposal, Garland and
                    Hil   , Architects, Project No.
                    NTX 80001                                03   8/81




                              A 35
                                                              Date of
Number                                Title                   Report

lD-10142-04-04      Claim for Additional Costs, Federal
                    Building and U.S. Courthouse,
                    Ft. Lauderdale, Florida, Dawson
                    Construction Company, Contract No.
                    GS-04B-16543                             03/18/81

2J-l0558-04-04      Price Proposal for Cleaning Service,
                    Raleigh, North Carolina, Colbar, Inc.,
                    Contract No. GS-04B-50344                03/18/81
lK-008ll-ll-11      Pre award Evaluation of Lease
                    Alteration Pricing Proposal,
                    David Nassif Associates, Lease No.
                    GS-03B-5564                              03/20/81

lW-l0357-00-03      Contract Billings, Hill International,
                    Inc., Contract No. GS-00B-2225           03/20/81

2J-l0598-04-04      Letter Report - Desk Audit Review
                    of Superb Maintenance Service, Inc.,
                    Proposal for Cleaning Service at
                    the Internal Revenue Center, Federal
                    Office Building, and GSA Self-Service
                    Store, Memphis, Tennessee                03/20/81

lS-10186-08-08      Preaward Evaluation of Pricing
                    Proposal, Beneco Enterprises,
                    Project No. R-UT-77-062                  03/23/81

lB-l0436-05-05-D    Preaward Evaluation of Price
                    Proposal, Schooley Caldwell
                    Associates, Proposal No.
                    GS-05BC-90453                            03/23/81

2B-l054l-07-07      Preaward Evaluation of Pricing
                    Proposal, Kut-Kwick Corporation,
                    Solicitation No. 7CF-5l948/H4/7FC        03/23/81

lS-10154-04-04      Letter Report - Post Audit of Polote
                    Builders, Inc., (8a) Demolition of
                    Helmly Building, Savannah, Georgia       03/24/81

lS-10538-04-04(a)   Letter Report - Price Proposal,
                    F. E. Davis Company, for HVAC
                    System Modification to Winston-Salem,
                    North Carolina, Federal Building,
                    Project No. RNC 78215                    03/24/81

2B-I0540-07-07      Preaward Evaluation of Pricing
                    Proposal, Jacobsen Division of
                    Textron, Inc., Solicitation No.
                    7CF-59148/H4/7FC                         03/24/81


                              A-3
                                                                   Date of
Number                                   Ti.
                   .__. _ - - - - ' - - - - - - - - - - - - - ,

2W-00238-;l1-11    Ti.me and Materials Contract,
                   Atlantic Garages, Contract No.
                   GS-3DPR-91010                                  03/25/81
1B-00815-11-11     Pre award Evaluation of Supplemental
                   A-E Pricing Proposal, Davis, Smith,
                   Carter & Rider, Inc.                           03/26/81
2B-10539-07-07     Preaward Evaluation of Pricing
                   Proposal, The Toro Company,
                   Solicitation No. 7CF-5l948/H4/7FC              03/26/81
2B-10069-00-03     Preaward Evaluation of Pricing
                   Proposal, S.S. White Dental
                   Products, International, A Division
                   of Pennwalt Corporation, Solicitation
                   No. FCGS-M-90197-N-10 7-80                     03/27/81

2B-10104-00-10     Preaward Evaluation of Price
                   Proposal for Measurement and Test
                   Instruments, FSS Schedule 66-II-H,
                   John Fluke Manufacturing Co., Inc.             03/27/81

1S-10374-11-11     Preaward Evaluat     of Pr ing
                   Propos  , Aninr~o'N Services, Inc.,
                   Contract No.      3B-98254 (NEG)               03/27/81
2R-10549-00-26-D   E   uat on of Price       aI,
                   EDD-AIRE , Divis      EDD Corporation,
                   Solicitat     No GSC-CDPS-C-K-OOOOI-N          03/27/81

2B-10563-00-01             Evaluat   of Price
                        aI, Kendall Co., Boston,
                   Massachusetts                                  03/27/81

2B-10592-07-07     Letter Report - Preaward Evaluation
                   of Price Proposal, Surgikos, Inc.,
                   Solicitation No 7CF-5l974 5/7FC                03/27/81
2A-10344-00-11     Pre award Evaluation of Pricing
                   Proposal, EG & G Sea-Link Systems,
                   Solicitation No.
                   FCGS-H-36346-N-4-2l-80                         03/30/81

2S-00231-00-03     Price Reduction/Defective Pricing
                   Audit, Sperry Univac Divis
                   FSD, Sperry Rand Corporation,
                   Contract No. GS-00C-01507                      03/31/81




                               A-37
                                                             Date of
Number                              Title                    Report

lJ-10196-ll-ll     Lease Claim, Southwest Joint
                   Venture, Lease No. GS-03B-60l72          03/31/81

lL-10198-1l-1l     Global Building Holdover Tenancy
                   Claim, 1025 Vermont Avenue
                   Associates, Lease No. GS-03B-5342        03/31/81
lS-10433-04-04     Preaward Evaluation of Pricing
                   Proposal, Jarodwin Construction
                   Co., Inc., Contract No. RGA 78183        03/31/81
lD-10523-00-ll-D   Review of Delay Claim, Haggerty
                   Millwork Corporation, Contract
                   No. GS-04-B-16375                        03/31/81
lD-10553-04-04     Delay Claim, Finishes, Interior
                   and Exterior Training Building 262,
                   FLETC, ACS Construction Company, Inc.,
                   Contract No. GS-04B-17007(M)             03/31/81

lL-1056l-06-06     Lease Escalation Proposal, Hanley
                   Properties, Ltd., Clayton, Missouri,
                   Lease No. GS-06B-14364                   03/31/81
lL-10574-06-06     Lease Escalation Proposal, City
                   Center Square Building, Kansas City,
                   Missouri, Lease No. GS-06B-14268         03/31/81




                            A-3R
                      APPENDIX B


List of all inspection reports issued during the period
     from October 1, 1980, through March 31, 1981
LEASING PROGRAM

Number                  Title                Date of Report

NC-PBS-L-07-80    3620 Biddle Avenue         August 26, 1980
                  Wyandotte, Iv1I

NC-PBS-L-08-80    127 W. Berry Street        August 27, 1980
                  Fort Wayne, IN

NC-PBS-L-09-80    135 W. Wells Street        October 15, 1980
                  Milwaukee, WI

NC-PBS-L-01-8l    137 N. Riverside Drive     October 20, 1980
                  Wausau, WI

NC-PBS-L-02-81    8929 S. Harlem Avenue      October 24, 1980
                  Br idgeview, IL

NC-PBS-L-03-S1    217 E. Commercial Street   October 23, 1980
                  Lebanon, MI

NC-PBS-L-04-81    301 High Avenue            October 24, 1980
                  Oskaloosa, LA

NC-PBS-L-05-S1    120 E. First Street        October 28, 1980
                  Monroe, MI

NC-PBS-L-06-81    14 Mile Road               October 29, 1980
                  Warren, MI

NC-PBS-L-07-81    30 W Mifflin Street        October 29, 1980
                  Madison, WI

PBS-L-Ol-81       Ten Post Office Square     November 7, 1980
                  Boston, MA

PBS-L-02-81       611 Research Road          November 10, 1980
                  Richmond, VA

PBS-L-04-S1       1458 Hancock Street        February 20, 1981
                  Quincy, Iv1A

PBS-L-05-81       2626 Hy1an Blvd. Street    February 20, 1981
                  Staten Island NY

PBS-L-06-81       18 E. 50th Street          February 20, 1981
                  New York, NY

PBS-L-07-81       100 Brown Street           February 20, 1981
                  Middletown, PA


                         B-1
PBS-L-08-81     Management Report on     February 20, 1981
                Fast Track Program

S-PBS-L-05-80   200 E. Capitol Street    September 25, 1980
                Jackson, MS

S-PBS-L-06-80   200 E. Capitol Street    September 25, 1980
                Jackson, MS

S-PBS-L-07-80   One American Place       September 11, 1980
                Baton Rouge, LA

S-PBS-L-08-80   One American Place       September 18, 1980
                Baton Rouge, LA

S-PBS-L-09-80   One American Place       September 18, 1980
                Baton Rouge, LA

S-PBS-L-IO-80   One American Place       September 11, 1980
                Baton Rouge, LA

S-PBS-L-11-80   119 E. Flagler Street    October 15, 1980
                Miami, FL

S-PBS-L-12-80   330 Biscayne Boulevard   October 9, 1980
                Miami, FL

S-PBS-L-13-80   330 Biscayne Boulevard   October 20, 1980
                Miami, FL

S-PBS-L-14-80   189 SE Third Avenue      October 9, 1980
                Delray Beach, FL

S-PBS-L-15-80    05 Marquette Street     November 18, 1980
                Albuquerque, NM

S-PBS-L-16-80   505 Marquette Street     November 17, 1980
                Albuquerque, NM

S-PBS-L-17-80   505 Marquette Street     November 13, 1980
                Albuquerque " NM
S-PBS-L-18-80   4   and Central          November 17, 1980
                Albuquerque, NM

S-PBS-L-19-80   4th and Central          November 17, 1980
                Albuquerque, NM

S-PBS-L-20-80   4th and Central          November 17, 1980
                Albuquerque, NM




                        B-
S-PBS-L-2l-80         4th and Central
                      Albuquerque, NM

S-PBS-L-22-80         4th and Central
                      Albuquerque, NM

W-PBS-L-05-80         5507 6th Avenue S.       September 5, 1980
                      Seattle, WA

W-PBS-L-06-80         12th Court               October 8, 1980
                      Olympia, WA

W-PBS-L-01-8l         2422 Arden Way           November 18, 1980
                      Sacramento, CA

W-PBS-L-02-8l         1745 Markston Road       November 20, 1980
                      Sacramento, CA

W-PBS-L-03-8l         300 Black Diamond Road   October 25, 1980
                      Pittsburg, CA

W-PBS-L-04-8l         1445 W. Valley Highway   November 6, 1980
                      Auburn, WA

W-PBS-L-05-8l         13th Orca                November 10, 1980
                      Anchorage, AK

W-PBS-L-06-Bl         307 w. 200 Square        November 14, 1980
                      Salt Lake City, UT

W-PBS-L-07-8l         44 Union Plaza           November 17, 1980
                      Lakewood, CO

W-PBS-L-OB-8l         555 Zang Street          November 20, 1980
                      Lakewood, CO

NC-PBS-L-05-80        The Bicentennial Bldg.   October 7, 1980
                      Spr ingf ield, IL

W-PBS-L-09-8l         24000 Avila Road         December 19, 1980
                      Laguna Niguel, CA

NC-PBS-L-04-80        IRS Center               February 6, 1981
                      Detroit, MI

BUILDINGS OPERATIONS PROGRAM

PBS-B-06-81          Off    Services Branch    March 31, 1981
                        ion 1
                     Boston, MA




                               B-3
PBS-B-09-Bl    Review of Bidding Scheme     March 31, 19B1
               Reston Subgroup

PBS-B-07-Bl    Preliminary Review of        March 31, 19B1
               Tishman West Management
               Corporation and Viking
               Buildings, Inc.,
               Relationships and
               Overpriced Work

PBS-B-05-Bl    Renovations to Gymnasium     January 30, 19B1
               Room B-35B
               Department of the
               Interior

PBS-B-04-Bl    Review of Paint Purchases    January 27, 1981
               at the Suitland Field
               Office
               Suitland, MD

PBS-B-OI-Bl    Interim Report of Irregu-    October 8, 1980
               larities Involving Carpet
               Purchases and Installation

PBS-B-22B-BO   Review of Fort Meade         February 12, 1981
               Field Office

PBS-B-173-80   Review of the Sansome        March 31, 19B1
               Street Field Office
               San Francisco, CA

PBS-B-172-BO   Review of the Tampa          March 31, 1981
               Field Office
               Tampa, FL

PBS-B-170-80   Review of HEW F Id           March 31, 19B1
               Office
               Washington, D.C.

PBS-B-169-BO   Review of JFK Field          March 31, 1981
               Office
               Boston, MA

PBS-B-168-80   Review of Midwest            March 31, 1981
               Field Office
               Chicago, IL

PBS-B-IO-81    Review of Value              March 31, 1981
               Engineering Change
               Proposal No. 17
               Otisville Federal
               Correction Institute


                       B-4
S-PBS-C-06-81          Alterations for the          March 31, 19B1
                       Handicapped Fritz
                       Lanham Federal Building
                       and U.S. Courthouse
                       Building
                       Fort Worth, TX

S-PBS-B-09-81          Review of Field Office       March 31, 1981
                       at Shreveport, LA

S-PBS-B-OI-Bl          Review of Field Office       February 6, 1981
                       at Tupelo, MS

S-PBS-C-05-80          Review of Contract           January 30, 1981
                       GS-04B-16981(7) Security
                       Systems Installations,
                       IRS Center,
                       Chamblee, GA

S-PBS-C-04-80          Pensacola, Florida, US PO-   January 29, 1981
                       CT Miscellaneous Contracts

S-PBS-C-04-Bl          Initial Tenant Alterations   March 31, 1981
                       for Regional Administrator
                       Federal Building
                       Fort Worth, TX

NC-PBS-B-07-81         Review of Roof Repair Con-   January 26, 1981
                       tract
                       Jeffersonville, IN

NC-PBS-B-06-Bl         Review of Elevator Service   February 4, 1981
                       Contract
                       A.J. Celebreeze Federal
                       Building
                       Cleveland, OH

NC-PBS-B-02-81         Inspection of Field Office   January 27, 1981
                       Projects
                       Saint Louis, MO

NC-PBS-B-08-81         Review of Detroit Field      March 31, 1981
                       Office
                       Detroit, MI

CONSTRUCTION PROGRAM

PBS-C-02-80            Federal Corrections          January 26, 1981
                       Institute
                       Otisville, New York
                       Report on Construction




                               B-5
PBS-C-07D-80        Federal Office Building    January 29, 1981
                    Anchorage, AK
                    Report on Construction
                    Manager and Construction
                    Contract Administration

PBS-C-17-80         Federal Office Building    October 3, 1980
                    and Courthouse
                    Wheeling, WVA
                    Report on Architect/
                    Engineer Contract Design
                    Analysis

PBS-C--19-80        Federal Building and       March 31, 1981
                    U.S. Courthouse
                    Springfield, MA
                    Architect/Engineer
                    Selection


ENERGY PROGRAM

PBS-E-01-81         150 Causeway               March 31, 1981
                    Boston, MA

PBS-E-02-81         JFK Airport                March 31, 1981
                    Hanger No. 11
                    New York, NY


FSS/TPUS DIVISION

FSS/TPUS-F-01-81    Letter Report -            January 27, 1981
                    Coleman Furniture

FSS/TPUS-F-02-81    Title Withheld -           March 30, 1981
                    Case Under Investigation

FSS/TPUS-F-04-81    Wiping Rag Inspection      March 27, 1981
                    General

FSS/TPUS-F-05-81    Wiping Rag Inspection      March 27, 1981
                    Hingham Depot
                    Hingham, MA

FSS/TPUS-F-06-81    Wiping Rag Inspection      March 27, 1981
                    'Raritan Depot
                    Edison, NJ




                            B-6
FSS/TPUS-F-07-81   Wiping Rag Inspection       March 27, 1981
                   Franconia Depot
                   Franconia, VA

FSS/TPUS-F-08-81   Wiping Rag Inspection       March 27, 1981
                   Norfolk Depot
                   Norfolk, VA

FSS/TPUS-F-09-81   Wiping Rag Inspection       March 27, 1981
                   Charleston Naval Supply
                   Center
                   Charleston, SC

FSS/TPUS-F-IO-81   Wiping Rag Inspection       March 27, 19tH
                   Garden City Depot
                   Garden City, GA

FSS/TPUS-F-11-81   Wiping Rag Inspection       March 27, 1981
                   Duluth Depot
                   Duluth, GA

FSS/TPUS-F-12-81   Wiping Rag Inspection       March 27, 1981
                   Chicago Depot
                   Chicago, IL

FSS/TPUS-F-13-81   Title Withheld--            March 27, 1981
                   Case Under Investigation

W-FSS-01-81        Review of Heavy Equipment   January 26, 1981
                   Repair Contract
                   San Francisco, CA

NC-FSS-02-80       Metal Pretreatment          December 5, 1980
                   Compounds, General
                   Chicago, IL

NC-FSS-03-80       Metal Pretreatment          December 5, 1980
                   Compounds
                   6PR-W-J0271-W2-F
                   Chicago, IL

NC-FSS-04-80       Metal Pretreatment          December 5, 1980
                   Compounds
                   6PR-W-J0303-Wy-F
                   Ch ago, IL

NC-FSS-05-80       Metal Pretreatment          December 5, 1980
                   Compounds
                   6PR-W-J(I)452-W6-F
                     icago, IL




                           B-7
NC-FSS-06-80   Metal Pretreatment       December 5, 1980
               Compounds
               6PR-W-J0482-B8-F
               Chicago, IL

NC-FSS-07-80   Metal Pretreatment       December 5, 1980
               Compounds
               6PR-W-j0758-B8-F
               Chicago, IL

NC-FSS-08-80   Tri State Plastics,      January 23, 1981
               Inc.
               Chicago, IL

NC-FSS-05-81   Allegations of Diluted   February 26, 1981
               Soap
               Chicago, IL




                      B-8
General Services Administration   Postage and Fees Paid                  (~
Office of Inspector General       U.S. General Ser::Vices Administration
Washington, DC 20405              GSA-361
                                                                     U.S.MAII.

Official Business
Penalty for Private Use $300
